APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS,
THIRD CIRCUIT
_________
UNITED STATES OF AMERICA, EX REL. J. WILLIAM
BOOKWALTER, III, M.D.; ROBERT J. SCLABASSI, M.D.;
ANNA MITINA
v.
UPMC; UNIVERSITY OF PITTSBURGH PHYSICIANS, D/B/A
UPP DEPARTMENT OF NEUROSURGERY
J. WILLIAM BOOKWALTER, III, M.D.; ROBERT J.
SCLABASSI, M.D.; ANNA MITINA,
Appellants.
_________
No. 18-1693
_________
Argued: January 10, 2019
(Filed: December 20, 2019)
_________
Before: AMBRO, BIBAS, and FUENTES, Circuit
Judges
_________
OPINION OF THE COURT
BIBAS, Circuit Judge.

2a
TABLE OF CONTENTS
I. Background...166
A. Factual Background...166
1. The University of Pittsburgh medical
system...166
2. The neurosurgeons’ compensation
structure...166
3. The neurosurgeons’ alleged fraud and its
effects on salaries and revenues...167
B. Procedural History...167
II. Standards of Review and Pleading...168
III. The Stark Act and the False Claims Act...168
A. The Stark Act...168
1. Forbidden conduct...168
2. Exceptions...169
3. No built-in cause of action...169
B. The False Claims Act...169
IV. The Relators Plead Stark Act Violations...169
A. The surgeons referred designated health
services to the hospitals...170
B. The relators’ complaint alleges an indirect
compensation arrangement...170
1. An unbroken chain of entities with financial
relationships connects the surgeons with the
hospitals...171

3a
2. The surgeons’ compensation took into account
the volume and value of their referrals...171
3. The hospitals knew that the surgeons’
compensation took their referrals into
account...174
V. The Relators Plead False Claims Act
Violations...175
A. The pleadings satisfy all three elements of the
False Claims Act...175
B. The pleadings satisfy Rule 9(b)...176
C. Pleading Stark Act exceptions under the False
Claims Act...177
1. The burden of pleading Stark Act exceptions
stays with the defendant under the False
Claims Act...177
2. Even if the relators bore this pleading
burden, they have met it...177
VI. Conclusion...177
Healthcare spending is a huge chunk of the federal
budget. Medicare and Medicaid cost roughly a
trillion dollars per year. And with trillions of dollars
comes the temptation for fraud.
Fraud is a particular danger because doctors and
hospitals can make lots of money for one another.
When doctors refer patients to hospitals for services,
the hospitals make money. There is nothing
inherently wrong with that. But when hospitals pay
their doctors based on the number or value of their
referrals, the doctors have incentives to refer more.

4a
The potential for abuse is obvious and requires
scrutiny.
The Stark Act and the False Claims Act work
together to ensure this scrutiny and safeguard
taxpayer funds against abuse. The Stark Act forbids
hospitals to bill Medicare for certain services when
the hospital has a financial relationship with the
doctor who asked for those services, unless an
exception applies. And the False Claims Act gives
the government and relators a cause of action with
which to sue those who violate the Stark Act.
Here, the relators allege that the defendants have
for years been billing Medicare for services referred
by their neurosurgeons in violation of the Stark Act.
The District Court found that the relators had failed
to state a plausible claim and dismissed their suit.
This appeal revolves around two questions: First,
do the relators offer enough facts to plausibly allege
that the surgeons’ pay varies with, or takes into
account, their referrals? Second, who bears the
burden of pleading Stark Act exceptions under the
False Claims Act?
The answer to the first question is yes. The
relators’ complaint alleges enough facts to make out
their claim. The relators make a plausible case that
the surgeons’ pay is so high that it must take their
referrals into account. All these facts are smoke; and
where there is smoke, there might be fire.
The answer to the second question is the
defendants. The Stark Act’s exceptions work like
affirmative defenses in litigation. The burden of
pleading these affirmative defenses lies with the

5a
defendant. This is true even under the False Claims
Act. And even if that burden lay with the relators,
their pleadings meet that burden here.
We hold that the complaint states plausible
violations of both the Stark Act and the False Claims
Act. So we will reverse.
I. BACKGROUND
A. Factual Background
1. The University of Pittsburgh medical system. On
this motion to dismiss, we take as true the facts
alleged in the second amended complaint: The
University of Pittsburgh Medical Center is a multibillion-dollar nonprofit healthcare enterprise. The
Medical Center is the parent organization of a whole
system of healthcare subsidiaries, including twenty
hospitals. The Medical Center is the sole member
(owner) of each hospital.
More than 2,700 doctors, including dozens of
neurosurgeons, work at these hospitals. The doctors
are employed not by the hospitals, but by other
Medical Center subsidiaries. Three of these
subsidiaries matter here: University of Pittsburgh
Physicians; UPMC Community Medicine, Inc.; and
Tri-State Neurological Associates-UPMC, Inc.
These three subsidiaries employed many of the
neurosurgeons who worked at the Medical Center’s
hospitals during the years at issue, from 2006 on.
Pittsburgh Physicians’ Neurosurgery Department
employed most of the surgeons at issue. Tri-State
employed two, and Community Medicine employed
one. The Medical Center owns all three subsidiaries.

6a
In short, the Medical Center owns both the hospitals
and the companies that employ the surgeons who
work in the hospitals.
2. The neurosurgeons’ compensation structure. The
surgeons who worked for the three subsidiaries here
all had similar employment contracts. Each surgeon
had a base salary and an annual Work-Unit quota.
Work Units (or wRVUs) measure the value of a
doctor’s personal services. Every medical service is
worth a certain number of Work Units. The longer
and more complex the service, the more Work Units
it is worth. Work Units are one component of
Relative Value Units (RVUs). RVUs are the basic
units that Medicare uses to measure how much a
medical procedure is worth.
The surgeons were rewarded or punished based on
how many Work Units they generated. If a surgeon
failed to meet his yearly quota, his employer could
lower his future base salary. But if he exceeded his
quota, he earned a $45 bonus for every extra Work
Unit.
3. The neurosurgeons’ alleged fraud and its effects
on salaries and revenues. This compensation
structure gave the surgeons an incentive to
maximize their Work Units. And the incentive seems
to have worked. The surgeons reported doing more,
and more complex, procedures. So the number of
Work Units billed by the Neurosurgery Department
more than doubled between 2006 and 2009.
Much of this increase allegedly stemmed from
fraud. The relators accuse the surgeons of artificially
boosting their Work Units: The surgeons said they

7a
acted as assistants on surgeries when they did not.
They said they acted as teaching physicians when
they did not. They billed for parts of surgeries that
never happened. They did surgeries that were
medically unnecessary or needlessly complex. And
they did these things, say the relators, “[w]ith the
full knowledge and endorsement of” the Medical
Center. App. 184 ¶190.
Fraud can be profitable. And here it allegedly was.
With these practices, the surgeons racked up lots of
Work Units and made lots of money. Most reported
total Work Units that put them in the top 10% of
neurosurgeons nationwide. And some received total
pay that put them among the best-paid 10% of
neurosurgeons in the country.
The surgeons’ efforts proved profitable for the
Medical Center too. The Medical Center made money
off the surgeons’ work on some of the referrals. And
to boot, healthcare providers bill Medicare for more
than just the surgeons’ own Work Units. Whenever a
surgeon did a procedure at one of the hospitals, the
Medical Center also got to bill “for the attendant
hospital and ancillary services.” App. 166 ¶ 104. This
part of the bill could be four to ten times larger than
the cost of the surgeon’s own services. So when the
surgeons billed more, the Medical Center made more.
“Indeed, in 2009,” the Neurosurgery Department
“was the single highest grossing neurosurgical
department in the United States, with Medicare
charges alone of $58.6 million.” App. 163-64 ¶91.

8a
B. Procedural History
The relators first filed suit in 2012. They alleged
that the Medical Center, Pittsburgh Physicians, and
a bevy of neurosurgeons had submitted false claims
for physician services and for hospital services to
Medicare and Medicaid. Four years later, the United
States intervened as to the claims for physician
services. The government settled those claims for
about $2.5 million. It declined to intervene as to the
claims for hospital services, but it let the relators
maintain that part of the action in its stead.
After the government intervened, the District
Court dismissed the first amended complaint
without prejudice for failure to state a claim. The
relators then filed their current complaint, asserting
three causes of action against the Medical Center
and Pittsburgh Physicians under the False Claims
Act:
(1) one count of submitting false claims,
(2) one count of knowingly making false records
or statements, and
(3) one count of knowingly making false records
or statements material to an obligation to pay
money to the United States.
The District Court again dismissed for failure to
state a claim, this time with prejudice. The relators
now appeal.
II. STANDARDS OF REVIEW AND PLEADING
We review a district court’s dismissal for failure to
state a claim de novo. Vorchheimer v. Philadelphian

9a
Owners Ass’n, 903 F.3d 100, 105 (3d Cir. 2018). Our
job is to gauge whether the complaint states a
plausible claim to relief. Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009).
Plausible does not mean possible. If the allegations
are “merely consistent with” misconduct, then they
state no claim. Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007).
There must be something in the complaint to suggest
that the defendant’s alleged conduct is illegal. Id. at
557, 127 S.Ct. 1955.
But plausible does not mean probable either. Our
job is not to dismiss claims that we think will fail in
the end. See id. at 556, 127 S.Ct. 1955. Instead, we
ask only if we have “enough fact[s] to raise a
reasonable expectation that discovery will reveal
evidence of” each element. Id.
This is the baseline pleading standard for all civil
actions. Fed. R. Civ. P. 8; Iqbal, 556 U.S. at 684, 129
S.Ct. 1937. But the relators allege claims for fraud.
So they must also meet Rule 9(b)’s heightened
pleading requirement. United States ex rel. Moore &
Co., P.A. v. Majestic Blue Fisheries, LLC, 812 F.3d
294, 306-07 (3d Cir. 2016). That rule says that a
party alleging fraud “must state with particularity
the circumstances constituting fraud.” Fed. R. Civ. P.
9(b).
III. THE STARK ACT AND THE FALSE
CLAIMS ACT
A. The Stark Act
The Stark Act and its regulations broadly bar
Medicare claims for many services referred by

10a
doctors who have a financial interest in the
healthcare provider. But the statute creates dozens
of exceptions and authorizes the Department of
Health and Human Services to make even more
exceptions for financial relationships that “do[ ] not
pose a risk of program or patient abuse.” 42 U.S.C.
§ 1395nn(b)(4).
1. Forbidden conduct. The Stark Act opens with a
broad ban. It forbids submitting Medicare claims for
“designated health services” provided under a
“referral” made by a doctor with whom the entity has
a “financial relationship.” Id. § 1395nn(a)(1).
Understanding this ban requires exploring these
three quoted terms, each of which has statutory and
regulatory definitions.
The Stark Act lists several categories of designated
health services, including inpatient hospital services.
Id. § 1395nn(h)(6)(K). And inpatient hospital services
include bed and board, interns’ and residents’
services, nursing, drugs, supplies, transportation,
and overhead. 42 C.F.R. §§ 409.10(a), 411.351.
A referral is a doctor’s request for a designated
health service. 42 U.S.C. § 1395nn(h)(5)(A); 42 C.F.R.
§ 411.351. That definition is broad, but it has an
important exception: services that a doctor performs
personally do not count. 42 C.F.R. § 411.351. That
makes sense; ordinarily, one cannot refer something
to oneself. And the exception’s boundaries also
follow: it does not cover services by a doctor’s
associates or employees, or services incidental to the
doctor’s own services. Id.; Medicare Program;
Physicians’ Referrals to Health Care Entities with
Which They Have Financial Relationships (Phase II);

11a
Interim Final Rule, 69 Fed. Reg. 16054, 16063 (Mar.
26, 2004).
Finally, financial relationships come in two forms:
(1) ownership or investment interests and (2)
compensation
arrangements.
42
U.S.C.
§ 1395nn(a)(2). This case turns on the latter. The
statute defines compensation arrangement to mean
“any arrangement involving any remuneration
between” a doctor and a healthcare provider. Id.
§ 1395nn(h)(1)(A). And remuneration “includes any
remuneration, directly or indirectly, in cash or in
kind.” Id. § 1395nn(h)(1)(B).
2. Exceptions. On its face, the Stark Act’s ban
sweeps in lots of common situations. To separate the
wheat from the innocuous chaff, Congress and the
Department of Health and Human Services have
created many exceptions. Here, the Medical Center
argues that exceptions for four types of compensation
arrangements could apply here: bona fide
employment; personal services; fair-market-value
compensation; and indirect compensation. See id.
§ 1395nn(e)(2), (e)(3); 42 C.F.R. § 411.357(l), (p).
All four exceptions have two elements in common.
First, the doctor’s compensation must not “take[ ]
into account (directly or indirectly) the volume or
value of the doctor’s referrals. 42 U.S.C.
§ 1395nn(e)(2)(B)(ii); accord id. § 1395nn(e)(3)(A)(v);
42 C.F.R. § 411.357(l)(3), (p)(1)(i). Second, the
doctor’s compensation must not exceed fair market
value. 42 U.S.C. § 1395nn(e)(2)(B)(i), (e)(3)(A)(v); 42
C.F.R. § 411.357(l)(3), (p)(1)(i).

12a
In litigation, these exceptions are affirmative
defenses. So once a plaintiff proves a prima facie
violation of the Stark Act, the burden shifts to the
defendant to prove that an exception applies. United
States ex rel. Kosenske v. Carlisle HMA, Inc., 554
F.3d 88, 95 (3d Cir. 2009).
3. No built-in cause of action. The Stark Act forbids
the government to pay claims that violate the Act. 42
U.S.C. § 1395nn(g)(1). It demands restitution from
those who receive payments on illegal claims. Id.
§ 1395nn(g)(2). And it creates civil penalties for
submitting improper claims or taking part in
schemes to violate the Act. Id. § 1395nn(g)(3), (4).
But it gives no one a right to sue. United States ex
rel. Drakeford v. Tuomey, 792 F.3d 364, 374 n.4 (4th
Cir. 2015).
So the Stark Act never appears in court alone.
Instead, it always come in through another statute
that creates a cause of action—typically, the False
Claims Act.
B. The False Claims Act
Under the False Claims Act, any person who
“knowingly presents, or causes to be presented, a
false or fraudulent claim for payment or approval” is
civilly liable to the United States. 31 U.S.C.
§ 3729(a)(1)(A). A Medicare claim that violates the
Stark Act is a false claim under the False Claims
Act. Kosenske, 554 F.3d at 94. The False Claims Act
also makes liable anyone who “knowingly makes,
uses, or causes to be made or used, a false record or
statement material to” a false or fraudulent claim. 31
U.S.C. § 3729(a)(1)(B), (G).

13a
IV. THE RELATORS PLEAD STARK ACT
VIOLATIONS
A prima facie Stark Act violation has three
elements: (1) a referral for designated health
services, (2) a compensation arrangement (or an
ownership or investment interest), and (3) a
Medicare claim for the referred services. See United
States ex rel. Schmidt v. Zimmer, Inc., 386 F.3d 235,
241 (3d Cir. 2004). This combination of factors
suggests potential abuse of Medicare. When they are
all present, we let plaintiffs go to discovery.
Here, no one denies that the defendants made
Medicare claims for designated health services. The
issue is whether the complaint sufficiently alleges
referrals and a compensation arrangement. We hold
that it does. The alleged Medicare abuse is plausible
and deserves more scrutiny.
A. The surgeons referred designated health
services to the hospitals
The relators allege that “[e]very time [the
neurosurgeons] performed a surgery or other
procedure at the UPMC Hospitals, [they] made a
referral for the associated hospital claims.” App. 193
¶234. They are right that these claims are referrals.
As mentioned, the law defines referrals broadly. A
referral is a doctor’s request for any designated
health service that is covered by Medicare and
provided by someone else. 42 C.F.R. § 411.351.
Designated health services include bed and board,
some hospital overhead, nursing services, and much
more. 42 C.F.R. § 409.10(a). And the relators plead
that as the surgeons performed more procedures,

14a
those procedures required (and the hospital provided
and “increased billings for[) ] the attendant hospital
and ancillary services including ... hospital and
nursing charges.” App. 166 ¶104 (emphasis added).
So the plaintiffs plead that the surgeons referred
designated health services to the hospitals.
Treating these services as referrals makes sense.
The Stark Act’s first step is to flag all potentially
abusive arrangements. And doctors who generate
profits for a hospital may be tempted to abuse their
power, raising hospital bills as well as their own pay.
These financial arrangements thus deserve a closer
look. And they will get a closer look only if we call
these arrangements what they are: doctors referring
services to hospitals.
The Department of Health and Human Services
agrees. In Phase I of its Stark Act rulemaking, it
considered this point. It determined that “any
hospital service, technical component, or facility fee
billed by [a] hospital in connection with [a doctor’s]
personally performed service” counts as a referral.
Medicare and Medicaid Programs; Physicians’
Referrals to Health Care Entities with Which They
Have Financial Relationships, 66 Fed. Reg. 856, 941
(Jan. 4, 2001). This is true even “in the case of an
inpatient surgery” where the doctor performs the
surgery. Id.
Then, in Phase II of its rulemaking, the agency
revisited the question and considered narrower
definitions. For instance, many commenters
suggested excluding “services that are performed
‘incident to’ a physician’s personally performed
services or that are performed by a physician’s

15a
employee” from the definition of a referral. 69 Fed.
Reg. at 16063.
But the agency reasonably rejected these
suggestions. A narrower view, it reasoned, would all
but swallow at least one statutory exception. Id. And
it explained that the availability of that and other
exceptions did enough to protect innocent conduct.
Id. “[T]his interpretation is consistent with the
statute as a whole,” which begins by casting a broad
net to scrutinize all potential abuse. Id.
B. The relators’ complaint alleges an indirect
compensation arrangement
A referral is ripe for abuse only when the doctor
who made it has a financial relationship with the
provider. Only then can a doctor profit from his own
referral. The financial relationship here is a
compensation arrangement.
Compensation arrangements can be either direct or
indirect. 42 C.F.R. § 411.354(c). The hospitals did not
pay the surgeons directly. So if there is any
compensation arrangement here, it is indirect. That
requires three elements: First, there must be “an
unbroken chain ... of persons or entities that have
financial relationships” connecting the referring
doctor with the provider of the referred services. Id.
§ 411.354(c)(2)(i). Second, the referring doctor must
get “aggregate compensation ... that varies with, or
takes into account, the volume or value of referrals.”
Id. § 411.354(c)(2)(ii). And third, the service provider
must know, recklessly disregard, or deliberately
ignore that the doctor’s compensation “varies with, or
takes into account, the volume or value of referrals.”

16a
Id. § 411.354(c)(2)(iii). (The parties do not challenge
any of the regulations at issue, so we likewise
assume that they are valid.) The complaint plausibly
pleads enough facts to satisfy each element.
1. An unbroken chain of entities with financial
relationships connects the surgeons with the
hospitals. An unbroken chain of financial
relationships links the surgeons to the hospitals.
First, the Medical Center owns each hospital.
Second, the Medical Center also owns three entities:
Pittsburgh Physicians, Community Medicine, and
Tri-State. Third, each of these three entities employs
and pays at least one of the surgeons. That adds up
to an unbroken chain of financial relationships.
Neither party disputes this.
2. The surgeons’ suspiciously high compensation
suggests that it took into account the volume and
value of their referrals. Next, the relators allege that
the surgeons’ aggregate compensation varied with,
and took into account, their referrals.
The parties disagree about what it means for
compensation to vary with referrals. Appellants
argue that varies with requires only correlation. And
compensation correlates with referrals here, they
argue, because surgeons racked up more Work Units
and earned more money by generating more
referrals. So the surgeons’ aggregate compensation
allegedly varied with their referrals. Appellees, by
contrast, deny that a correlation suffices. Rather,
they insist that the law requires some form of
causation.

17a
We need not resolve the meaning of varies with
here. Regardless, the complaint plausibly alleges
that the surgeons’ compensation takes into account
the volume or value of their referrals. Under the
Stark Act and its regulations, compensation takes
into account referrals if there is a causal relationship
between the two. And here, the surgeons’
suspiciously high compensation suggests causation.
Compensation for personal services above the fair
market value of those services can suggest that the
compensation is really for referrals. This is just
common sense. Healthcare providers would not want
to lose money by paying doctors more than they
bring in. They would do so only if they expected to
make up the difference another way. And that way
could be through the doctors’ referrals.
This may not be obvious on the face of the statute
and regulations. The Stark Act often treats fair
market value as a concept distinct from taking into
account the volume or value of referrals. For example,
these two concepts are separate elements of many
Stark Act exceptions. E.g., 42 U.S.C. § 1395nn(e)(2)
(bona fide employment), (e)(3) (personal service); 42
C.F.R. § 411.357(l) (fair-market-value compensation),
(p) (indirect compensation). And the definition of an
indirect compensation arrangement includes taking
referrals into account, but not fair market value. 42
C.F.R. § 411.354(c)(2)(ii).
But the Act’s different treatment of these concepts
does not sever them. To start, just because a statute
has two elements does not mean that one can never
be evidence of the other. Theft requires taking
another’s property with intent. Those are two

18a
elements, but the fact of taking property can be
circumstantial evidence of intent.
So too here. Perhaps not all payments above fair
market value are evidence of taking into account the
doctor’s referrals. But common sense says that
marked overpayments are a red flag. Anyone would
wonder why the hospital would pay so much if it was
not taking into account the doctor’s referrals for
other services. And we do no violence to the statutory
text by seeking an answer to that question.
The agency confronted this question directly. It
remarked that even “fixed aggregate compensation
can form the basis for a prohibited ... indirect
compensation arrangement” if it “is inflated to reflect
the volume or value of a physician’s referrals.” 69
Fed. Reg. at 16059 (emphasis added). The same is
true
of
“unit-of-service-based
compensation
arrangements,” like the one here. Id. Excessive
compensation is thus a sign that a surgeon’s pay in
fact takes referrals into account.
So aggregate compensation that far exceeds fair
market value is smoke. It suggests that the
compensation takes referrals into account. And the
relators here plead five facts that, viewed together,
make plausible claims that the surgeons’ pay far
exceeded their fair market value. First, some
surgeons’ pay exceeded their collections. Second,
many surgeons’ pay exceeded the 90th percentile of
neurosurgeons nationwide. Third, many generated
Work Units far above industry norms. Fourth, the
surgeons’ bonus per Work Unit exceeded what the
defendants collected on most of those Work Units.
And finally, the government alleged in its settlement

19a
agreement that the Medical Center had fraudulently
inflated the surgeons’ Work Units. That much smoke
makes fire plausible.
a. Pay exceeding collections. Paying a worker
more than he brings in is suspicious. And the
complaint alleges that at least three surgeons (Drs.
Bejjani, Spiro, and El-Kadi) were paid more than the
Medical Center collected for their services. The
complaint also alleges that the Medical Center
credits surgeons with 100 percent of the Work Units
that they generate, even if it cannot collect on all of
them. So at least three surgeons (maybe more) were
paid more than they bring in.
b. Pay exceeding the 90th percentile. The relators
allege that “[c]ompensation exceeding the 90th
percentile is widely viewed in the industry as a ‘red
flag’ indicating that it is in excess of fair market
value.” App. 191 ¶223. The defendants do not deny
this.
Several surgeons were paid more than the 90th
percentile. For example, the relators point to the
compensation of Drs. Abla, Spiro, Kassam, and
Bejjani between 2008 and 2011. Apart from Dr. Spiro
in 2008, each of these surgeons was paid more than
even the highest estimate of the 90th percentile for
all U.S. neurosurgeons in all four years. And
depending on which estimate of the 90th percentile
you use, they were sometimes paid two or three
times more than the 90th percentile. Dr. Bejjani’s
2011 bonus alone exceeded the 90th percentile of
total compensation in some surveys.

20a
c. Extreme Work Units. The relators also allege
facts from which we can reasonably infer that the
surgeons generated far more Work Units than
normal. Many neurosurgeons “were routinely
generating [Work Units] exceeding by an enormous
margin the 90th percentile as reflected in widelyaccepted market surveys.” App. 171 ¶126. Even if we
look only at the highest industry estimates, all but
one of the surgeons reported Work Units above the
90th percentile in 2006 and 2007. In 2008 and 2009,
eight of the twelve named surgeons exceeded the
highest estimate of the 90th percentile. A few even
seemed “super human,” racking up two to three times
the 90th percentile. App. 169 ¶ 117.
In short, most of the surgeons generated Work
Units at or above the 90th percentile. Some of their
numbers were unbelievably high. And because their
pay depends in large part on their Work Units, it is
fair to infer that most of their pay was also at or
above the 90th percentile.
d. Bonuses
exceeding
the
Medicare
reimbursement rate. Once a surgeon had enough
Work Units to earn bonus pay, the bonus per Work
Unit was more than Medicare would pay for each
one. The surgeons’ bonus per Work Unit was $45.
But the Medicare reimbursement rate was only
about $35. So once surgeons became eligible for
bonuses, the defendants took an immediate loss on
every Work Unit submitted to Medicare.
On its own, this would not show that the surgeons
were overpaid. Medicare and Medicaid are well
known as bottom-billers. They pay less than private
insurers. Though the defendants lost some money on

21a
Medicare Work Units, perhaps they made it back
with Work Units billed to other insurers.
But the relators also allege that “the majority of all
claims submitted by the [defendants] ... were
submitted to federal health insurance programs such
as Medicare and Medicaid.” App. 193 ¶233. We
cannot assume that private payments suffice to
make up the difference. Doing so would disregard
our job at this stage: to draw reasonable inferences
in favor of the plaintiffs.
In short, the defendants took an immediate
financial hit on Work Units for a majority of their
claims. This is yet another sign that the surgeons’
pay took referrals into account.
The defendants disagree. They argue that the
surgeons earn high salaries because of bona fide
bargaining with their employers. Their salaries
supposedly represent the market’s demand for their
surgical skill and experience.
This argument fails for two reasons. First, the
complaint says nothing about the surgeons’ skill and
experience or the Pittsburgh market for surgeons.
On this motion to dismiss, we cannot go beyond the
well-pleaded facts in the complaint.
Second, a bare claim of bona fide bargaining is not
enough. The Stark Act recognizes that related
parties often negotiate agreements “to disguise the
payment of non-fair-market-value compensation.”
Kosenske, 554 F.3d at 97. We trust that bona fide
bargaining leads to fair market value only when
neither party is “in a position to generate business
for the other.” Id.; 42 C.F.R. § 411.351 (defining “fair

22a
market value” and “general market value”). But that
is not true here. The surgeons and the Medical
Center can generate business for each other. So we
cannot assume that any bargaining was bona fide or
that the resulting pay was at fair market value.
e. The possibility of fraud. Finally, the surgeons’
high pay may have been based on fudging the
numbers. Not only were their individual Work Units
“significantly out of line with industry benchmarks,”
but the Neurosurgery Department as a whole
realized astounding “annual growth rates of work
[Units] ... of 20.3%, 57.1% and 20.0%” in 2007, 2008,
and 2009. App. 171 ¶¶127-28. Two of the surgeons
more than doubled their output in just a few years.
The relators allege that the defendants got this
growth by “artificially inflat[ing] the number of
[Work Units] in a number of ways.” App. 171 ¶130.
Alleging this fraud, the relators’ first complaint
included claims “relating to physician services
submitted by” the defendants along with the
“hospital claims” currently before us. App. 189 ¶217
(emphases in original) The government chose to
intervene as to the former claims, settling them with
the defendants for almost $2.5 million.
The relators’ current complaint quotes that
settlement agreement. In it, the government accused
the surgeons of many fraudulent practices: They
claimed to have acted as assistants when they did
not. They claimed to have done more extensive
surgeries than they did. And they chose the wrong
codes for surgeries. So “claims submitted for these
physician services resulted in more reimbursement

23a
than would have been paid” otherwise. App. 188-89
¶216.
We are careful not to overstate the point. This
settlement is not an admission of guilt. It proves no
wrongdoing. But at the 12(b)(6) stage, we are looking
only for plausible claims, not proof of wrongs. And
the government’s choice to intervene after years of
investigation and its allegations in the settlement
are cause for suspicion.
The question is not whether a doctor was able to
use an otherwise-valid compensation scheme as a
vehicle for fraudulent billing. Not every fraudulent
Medicare bill made at a hospital will give rise to a
Stark Act violation. Here, however, where the
compensation scheme produced results bordering on
the absurd, relators plausibly assert that the system
may have been designed with that outcome in mind.
The relators allege five sets of facts that suggest
that the surgeons’ pay far exceeded fair market
value: pay exceeding collections, pay above the 90th
percentile, extreme Work Units, bonuses above the
Medicare reimbursement rate, and the settlement.
That is plenty of smoke. We need not decide whether
any of these allegations alone would satisfy the
relators’ pleading burden. Together, they plausibly
suggest that the surgeons’ pay took their referrals
into account. Thus, the relators have pleaded more
than enough facts to suggest an indirect
compensation arrangement.
3. The hospitals knew that the surgeons’
compensation took their referrals into account. The
final element of an indirect compensation

24a
arrangement is scienter. To show scienter, the
relators’ pleadings must allege that the hospitals
that provided the referred services either (1) knew,
(2) deliberately ignored, or (3) recklessly disregarded
that the surgeons got “aggregate compensation that
varie[d] with, or t[ook] into account, the volume or
value of referrals.” 42 C.F.R. § 411.354(c)(2)(iii). They
allege this too.
To begin, the Medical Center controls all the
hospitals and the surgeons’ direct employers. It owns
each hospital. And it owns Pittsburgh Physicians,
Community Medicine, and Tri-State. So the Medical
Center “has unfettered authority with respect to
most members of the [medical system] and
significant authority (including with respect to
financial and tax matters) with respect to the
remaining members.” App. 146-47 ¶19 (quoting a
Medical Center tax filing).
Further, many officers and board members of these
entities overlapped. For example, one person
simultaneously served as an executive vice president
of the Medical Center as well as the president and a
board member of Pittsburgh Physicians. And he
signed surgeons’ pay agreements for Pittsburgh
Physicians. The relators identify nine others who
served on the board of both the Medical Center and
another entity in the medical system. Authority was
so centralized that a single person signed a
settlement agreement on behalf of all the defendants
that were part of the medical system. And with
common control comes common knowledge.
The common knowledge included both the
surgeons’ pay and their referrals. The Medical

25a
Center took part in forming, approving, and
implementing the surgeons’ pay packages. So it knew
their structure. The Medical Center also had a
central coding and billing department that handled
billing for its subsidiaries. So it knew about the
surgeons’ referrals.
With both sets of data in front of it, we can
plausibly infer that the Medical Center knew the
surgeons’ compensation took their referrals into
account. And as the Medical Center knew that, so did
the hospitals. They had all the data right in front of
them. They knew that the surgeons’ pay and Work
Units were out of line with industry survey data.
Even if they did not actually know that the surgeons’
pay and work levels were suspiciously high, they at
least deliberately ignored or recklessly disregarded
that fact. Thus, the complaint alleges that both the
Medical Center and hospitals had scienter.
*****
This means that the relators have successfully
pleaded the third and final element of a Stark Act
violation: scienter. But they must plead one more
thing to survive a motion to dismiss. We must now
consider whether the relators have pleaded a
plausible prima facie case under the False Claims
Act.
V. THE RELATORS PLEAD FALSE CLAIMS
ACT VIOLATIONS
The relators plead their Stark Act claims as
violations of the False Claims Act. So their pleadings
must satisfy all the elements of the False Claims Act.
They do. And they satisfy Rule 9(b)’s heightened

26a
pleading standard. Last, we hold that the Stark Act’s
exceptions are not additional elements of a prima
facie case. But even if they were, the relators have
plausibly pleaded that no exception applies here.
A. The pleadings satisfy all three elements of
the False Claims Act
To make out a prima facie case, the relators must
plead three elements: “ ‘(1) the defendant presented
or caused to be presented to an agent of the United
States a claim for payment; (2) the claim was false or
fraudulent; and (3) the defendant knew the claim
was false or fraudulent.’ ” Schmidt, 386 F.3d at 242
(quoting Hutchins v. Wilentz, Goldman & Spitzer,
253 F.3d 176, 182 (3d Cir. 2001)). They have alleged
enough facts to plead all three elements.
First, by submitting claims to Medicare and other
federal health programs, the defendants presented
claims for payment to the government.
Second, the relators allege that these claims were
false. A Medicare claim that violates the Stark Act is
a false claim. Kosenske, 554 F.3d at 94. And we have
already explained at length why the Medicare claims
here plausibly violated the Stark Act.
Third, the relators’ allegations plead scienter. Just
like the Stark Act, the False Claims Act requires
that the defendants know, deliberately ignore, or
recklessly disregard the falsity of their claim. 31
U.S.C. § 3729(b)(1)(A). But it does not require a
specific intent to defraud. Id. § 3729(b)(1)(B).
The claims are false because they allegedly violated
the Stark Act. The question is whether the

27a
defendants at least recklessly disregarded that
possibility. The defendants had a centralized billing
department and were familiar with the Stark Act
itself, so they knew that they submitted Medicare
claims for referred designated health services. That
leaves only whether the defendants knew that the
hospitals and surgeons had an indirect compensation
agreement.
The complaint alleges that the defendants at least
recklessly disregarded that possibility. They knew
their own corporate structure. We have already
explained how they knew or recklessly disregarded
that the surgeons’ pay varied with their referrals.
And we have also explained how they knew or
recklessly disregarded that their surgeons’ pay far
exceeded fair market value and thus plausibly took
referrals into account. So the relators have pleaded a
prima facie claim under the False Claims Act.
B. The pleadings satisfy Rule 9(b)
The relators’ complaint also satisfies Rule 9(b)’s
particularity requirement. To do so, the allegations
must go well beyond Rule 8’s threshold of
plausibility. A mere plausible inference of illegality is
not enough. Instead, “a relator must ‘establish a
“strong inference” that the false claims were
submitted.’ ” United States ex rel. Silver v. Omnicare,
Inc., 903 F.3d 78, 92 (3d Cir. 2018) (quoting Foglia v.
Renal Ventures Mgmt., 754 F.3d 153, 158 (3d Cir.
2014)).
Rule 9(b)’s particularity requirement requires a
plaintiff to allege “ ‘all of the essential factual
background that would accompany the first

28a
paragraph of any newspaper story—that is, the who,
what, when, where, and how of the events at issue.’ ”
Majestic Blue Fisheries, 812 F.3d at 307 (quoting In
re Rockefeller Ctr. Props., Inc. Secs. Litig., 311 F.3d
198, 217 (3d Cir. 2002)). The complaint gives us all
these necessary details:


Who? The defendants: the Medical Center and
Pittsburgh Physicians.



What? The defendants submitted or caused to
be submitted false Medicare claims.



When? From 2006 until now.



Where? The Medicare claims were submitted
from the Medical Center’s centralized billing
facility, while the referred services were
provided at the Medical Center’s twenty
hospitals.



How? When the Medical Center submitted a
claim, it certified compliance with the Stark
Act. The complaint makes all the allegations
discussed above. We will not repeat them. But
they detail exactly how these claims violated
the Stark Act.

Rule 9(b) does not require the relators to plead
anything more, such as the date, time, place, or
content of every single allegedly false Medicare
claim. The falsity here comes not from a particular
misrepresentation, but from a set of circumstances
that, if true, makes a whole set of claims at least
prima facie false. It is enough to allege those
circumstances with particularity. Doing so “inject[s]
precision or some measure of substantiation into

29a
[the] fraud allegation” and “place[s] the defendant on
notice of the precise misconduct with which [it is]
charged.” Alpizar-Fallas v. Favero, 908 F.3d 910, 919
(3d Cir. 2018) (quoting Frederico v. Home Depot, 507
F.3d 188, 200 (3d Cir. 2007)) (last alteration in
original; internal quotation marks omitted).
And the relators have done so. The second
amended complaint runs 57 pages (plus exhibits) and
comprises 257 numbered paragraphs. Dozens of
these paragraphs go into great detail about specific
physicians’ Work Units and pay levels. The
complaint compares those figures at length with
industry benchmarks, medians, and 90th percentiles.
It alleges specific ways that surgeons padded their
bills, by for instance falsely reporting unperformed
work assisting other surgeons or physically
supervising residents and interns. The complaint
also quotes the government’s settlement agreement,
alleging specific ways that surgeons had been
padding their bills. The sum total of these allegations
tells a detailed story about how the defendants
designed a system to reward surgeons for creating
and submitting false claims. See Omnicare, 903 F.3d
at 91-92 (quoting Foglia, 754 F.3d at 158). And that
is particular enough to satisfy Rule 9(b).
C. Pleading Stark Act exceptions under the
False Claims Act
One final issue is how the Stark Act interacts with
the False Claims Act. The defendants argue that the
False Claims Act’s elements of falsity and knowledge
turn the Stark Act’s exceptions into prima facie
elements of the False Claims Act. On their reading,

30a
the relators would have to plead that no exception
applies here.
We reject that argument. The defendants retain
the burden of pleading Stark Act exceptions even
under the False Claims Act. And even if the relators
bore that burden, they have met it here.
1. The burden of pleading Stark Act exceptions
stays with the defendant under the False Claims Act.
The defendants argue that the False Claims Act’s
knowledge and falsity elements turn the Start Act’s
exceptions into prima facie elements. Their logic is
simple and cogent: The False Claims Act penalizes
only false claims. 31 U.S.C. § 3729(a)(1). False claims
include claims submitted in violation of the Stark
Act. See Kosenske, 554 F.3d at 94. But if an exception
to the Stark Act applies, then the claim is not false.
And if the defendant thinks that an exception
applies, then the defendant does not know that the
claim is false. So, according to the defendants, to
plead a False Claims Act claim based on Stark Act
violations, a relator must plead that no Stark Act
exception applies and that the defendant knows that
none applies. Otherwise, the relator pleads neither
falsity nor knowledge.
Though this argument has force, we reject it. Our
precedent compels this result. Like this case,
Kosenske was a False Claims Act case based on Stark
Act violations. Id. It placed the burden of proving a
Stark Act exception on the defendant. Id. at 95;
accord Tuomey, 792 F.3d at 374. And we see no
reason to split up the burdens of pleading and
persuasion. It is thus the defendants’ burden to plead

31a
a Stark Act exception, not the relators’ burden to
plead that none exists.
2. Even if the relators bore this pleading burden,
they have met it. In any event, the relators here
plausibly plead that no Stark Act exception applies.
The parties identify four that could apply here:
exceptions for bona fide employment, personal
services, fair-market-value pay, and indirect
compensation. All four exceptions require that the
surgeons’ compensation not exceed fair market value
and not take into account the volume or value of
referrals.
We have already explained how the relators
plausibly plead that the surgeons were paid more
than fair market value. And that itself suggests that
their pay may take into account their referrals’
volume or value. So the relators plausibly plead that
no Stark Act exception applies.
VI. CONCLUSION
Evaluating a motion to dismiss is “a contextspecific task that requires the reviewing court to
draw on its judicial experience and common sense.”
Iqbal, 556 U.S. at 679, 129 S.Ct. 1937. Our
experience and common sense tell us that the
relators state a plausible claim that the Medical
Center and Pittsburgh Physicians have violated the
Stark Act and the False Claims Act.
The facts they plead, if true, satisfy every element
of those statutes: A chain of financial relationships
linked the hospitals to the surgeons. The surgeons
referred many designated health services to the
hospitals, generating ancillary hospital services and

32a
facility fees. It is plausible that their pay takes into
account the volume of those referrals. The hospitals
made Medicare claims for those referrals. And the
defendants allegedly knew all this.
With all this smoke, a fire is plausible. So this case
deserves to go to discovery. Once the discovery is in,
it may turn out that there is no fire. We do not
prejudge the merits. But this is exactly the kind of
situation on which the Stark and False Claims Acts
seek to shed light. We will thus reverse the District
Court’s dismissal and remand for further
proceedings.

33a
APPENDIX B
_________
UNITED STATES COURT OF APPEALS,
THIRD CIRCUIT
_________
UNITED STATES OF AMERICA, EX REL. J. WILLIAM
BOOKWALTER, III, M.D.; ROBERT J. SCLABASSI, M.D.;
ANNA MITINA
v.
UPMC; UNIVERSITY OF PITTSBURGH PHYSICIANS, D/B/A
UPP DEPARTMENT OF NEUROSURGERY
J. WILLIAM BOOKWALTER, III, M.D.; ROBERT J.
SCLABASSI, M.D.; ANNA MITINA,
Appellants.
_________
No. 18-1693
_________
Dated: December 20, 2019
_________
(W.D. Pa. No. 2:12-cv-00145)
_________
Present: SMITH, Chief Judge, and McKEE, AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
GREENAWAY,
JR.,
SHWARTZ,
KRAUSE,
RESTREPO, BIBAS, MATEY, PHIPPS, and
FUENTES,* Circuit Judges
*

Judge FUENTES’s vote is limited to panel rehearing only.

34a
SUR PETITION FOR REHEARING
Stephanos Bibas, Circuit Judge
The petition for rehearing filed by Appellees in the
above-captioned case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, it is hereby
ORDERED that the petition for rehearing is
GRANTED IN PART. A majority of the judges who
participated in the decision of the Court having voted
for rehearing, the petition for rehearing by the panel
is GRANTED. The opinion and judgment filed
September 17, 2019, are hereby VACATED. A
subsequent opinion and judgment are herewith
issued.
The majority has made changes to the language
that appeared at pages 3–4, 6, 11, 15, 27–30, 32–33,
35–37, and 39–40 of the original opinion. Most of the
material that appeared at pages 18–25 of the original
opinion has been deleted. Judge AMBRO’s opinion
concur-ring in the judgment has been withdrawn.
A majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the Court en banc is DENIED.

35a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS,
THIRD CIRCUIT
_________
UNITED STATES OF AMERICA, EX REL. J. WILLIAM
BOOKWALTER, III, M.D.; ROBERT J. SCLABASSI, M.D.;
ANNA MITINA
v.
UPMC; UNIVERSITY OF PITTSBURGH PHYSICIANS, D/B/A
UPP DEPARTMENT OF NEUROSURGERY
J. WILLIAM BOOKWALTER, III, M.D.; ROBERT J.
SCLABASSI, M.D.; ANNA MITINA,
Appellants.
_________
No. 18-1693
_________
Argued: January 10, 2019
(Filed: September 17, 2019)
_________
Before: AMBRO, BIBAS, and FUENTES, Circuit
Judges.
_________
OPINION OF THE COURT
BIBAS, Circuit Judge.

36a
TABLE OF CONTENTS
I. Background...403
A. Factual Background...403
1. The University of Pittsburgh medical
system...403
2. The neurosurgeons’ compensation
structure...403
3. The neurosurgeons’ alleged fraud and its
effects on salaries and revenues...403
B. Procedural History...404
II. Standards of Review and Pleading...404
III. The Stark Act and the False Claims Act...405
A. The Stark Act...405
1. Forbidden conduct...405
2. Exceptions...405
3. No built-in cause of action...406
B. The False Claims Act...406
IV. The Relators Plead Stark Act Violations...406
A. The surgeons referred designated health
services to the hospitals...406
B. The relators’ complaint alleges an indirect
compensation arrangement...407
1. An unbroken chain of entities with financial
relationships connects the surgeons with the
hospitals...408

37a
2. The surgeons’ compensation varies with, or
takes into account, the volume and value of
their referrals...408
3. The hospitals knew that the surgeons’
compensation varied with, or took into account,
referrals...414
V. The Relators Plead False Claims Act
Violations...415
A. The pleadings satisfy all three elements of the
False Claims Act...415
B. The pleadings satisfy Rule 9(b)...416
C. Pleading Stark Act exceptions under the False
Claims Act...416
1. The burden of pleading Stark Act exceptions
stays with the defendant under the False
Claims Act...416
2. Even if the relators bore this pleading
burden, they have met it...417
D. Practical concerns...417
VI. Conclusion...417
Healthcare spending is a huge chunk of the federal
budget. Medicare and Medicaid cost roughly a
trillion dollars per year. And with trillions of dollars
comes the temptation for fraud.
Fraud is a particular danger because doctors and
hospitals can make lots of money for one another.
When doctors refer patients to hospitals for services,
the hospitals make money. There is nothing
inherently wrong with that. But when hospitals pay

38a
their doctors based on the number or value of their
referrals, the doctors have incentives to refer more.
The potential for abuse is obvious and requires
scrutiny.
The Stark Act and the False Claims Act work
together to ensure this scrutiny and safeguard
taxpayer funds against abuse. The Stark Act forbids
hospitals to bill Medicare for certain services when
the hospital has a financial relationship with the
doctor who asked for those services, unless an
exception applies. And the False Claims Act gives
the government and relators a cause of action with
which to sue those who violate the Stark Act.
Here, the relators allege that the defendants have
for years been billing Medicare for services referred
by their neurosurgeons in violation of the Stark Act.
The District Court found that the relators had failed
to state a plausible claim and dismissed their suit.
This appeal revolves around two questions: First,
do the relators offer enough facts to plausibly allege
that the surgeons’ pay varies with, or takes into
account, their referrals? Second, who bears the
burden of pleading Stark Act exceptions under the
False Claims Act?
The answer to the first question is yes. The
relators’ complaint alleges enough facts to make out
their claim. The surgeons’ contracts make it very
likely that their pay varies with their referrals. And
the relators also make a plausible case that the
surgeons’ pay is so high that it must take referrals
into account. All these facts are smoke; and where
there is smoke, there might be fire.

39a
The answer to the second question is the
defendants. The Stark Act’s exceptions work like
affirmative defenses in litigation. The burden of
pleading these affirmative defenses lies with the
defendant. This is true even under the False Claims
Act. And even if that burden lay with the relators,
their pleadings meet that burden here.
We hold that the complaint states plausible
violations of both the Stark Act and the False Claims
Act. So we will reverse.
I. BACKGROUND
A. Factual Background
1. The University of Pittsburgh medical system. On
this motion to dismiss, we take as true the facts
alleged in the second amended complaint: The
University of Pittsburgh Medical Center is a multibillion-dollar nonprofit healthcare enterprise. The
Medical Center is the parent organization of a whole
system of healthcare subsidiaries, including twenty
hospitals. The Medical Center is the sole member
(owner) of each hospital.
More than 2,700 doctors, including dozens of
neurosurgeons, work at these hospitals. The doctors
are employed not by the hospitals, but by other
Medical Center subsidiaries. Three of these
subsidiaries matter here: University of Pittsburgh
Physicians; UPMC Community Medicine, Inc.; and
Tri-State Neurological Associates-UPMC, Inc.
These three subsidiaries employed many of the
neurosurgeons who worked at the Medical Center’s
hospitals during the years at issue, from 2006 on.

40a
Pittsburgh Physicians’ Neurosurgery Department
employed most of the surgeons at issue. Tri-State
employed two, and Community Medicine employed
one. The Medical Center owns all three subsidiaries.
In short, the Medical Center owns both the hospitals
and the companies that employ the surgeons who
work in the hospitals.
2. The neurosurgeons’ compensation structure.
The surgeons who worked for the three subsidiaries
here all had similar employment contracts. Each
surgeon had a base salary and an annual Work-Unit
quota. Work Units (or wRVUs) measure the value of
a doctor’s personal services. Every medical service is
worth a certain number of Work Units. The longer
and more complex the service, the more Work Units
it is worth. Work Units are one component of
Relative Value Units (RVUs). RVUs are the basic
units that Medicare uses to measure how much a
medical procedure is worth.
The surgeons were rewarded or punished based on
how many Work Units they generated. If a surgeon
failed to meet his yearly quota, his employer could
lower his future base salary. But if he exceeded his
quota, he earned a $45 bonus for every extra Work
Unit.
3. The neurosurgeons’ alleged fraud and its
effects on salaries and revenues. This compensation
structure gave the surgeons an incentive to
maximize their Work Units. And the incentive seems
to have worked. The surgeons reported doing more,
and more complex, procedures. So the number of
Work Units billed by the Neurosurgery Department
more than doubled between 2006 and 2009.

41a
Much of this increase allegedly stemmed from
fraud. The relators accuse the surgeons of artificially
boosting their Work Units: The surgeons said they
acted as assistants on surgeries when they did not.
They said they acted as teaching physicians when
they did not. They billed for parts of surgeries that
never happened. They did surgeries that were
medically unnecessary or needlessly complex. And
they did these things, say the relators, “[w]ith the
full knowledge and endorsement of” the Medical
Center. App. 184 ¶190.
Fraud can be profitable. And here it allegedly was.
With these practices, the surgeons racked up lots of
Work Units and made lots of money. Most reported
total Work Units that put them in the top 10% of
neurosurgeons nationwide. And some received total
pay that put them among the best-paid 10% of
neurosurgeons in the country.
The surgeons’ efforts proved profitable for the
Medical Center too. The Medical Center made money
off the surgeons’ work on some of the referrals. And
to boot, healthcare providers bill Medicare for more
than just the surgeons’ own Work Units. Whenever a
surgeon did a procedure at one of the hospitals, the
Medical Center also got to bill “for the attendant
hospital and ancillary services.” App. 166 ¶ 104. This
part of the bill could be four to ten times larger than
the cost of the surgeon’s own services. So when the
surgeons billed more, the Medical Center made more.
“Indeed, in 2009,” the Neurosurgery Department
“was the single highest grossing neurosurgical
department in the United States, with Medicare
charges alone of $58.6 million.” App. 163-64 ¶ 91.

42a
B. Procedural History
The relators first filed suit in 2012. They alleged
that the Medical Center, Pittsburgh Physicians, and
a bevy of neurosurgeons had submitted false claims
for physician services and for hospital services to
Medicare and Medicaid. Four years later, the United
States intervened as to the claims for physician
services. The government settled those claims for
about $2.5 million. It declined to intervene as to the
claims for hospital services, but it let the relators
maintain that part of the action in its stead.
After the government intervened, the District
Court dismissed the first amended complaint
without prejudice for failure to state a claim. The
relators then filed their current complaint, asserting
three causes of action against the Medical Center
and Pittsburgh Physicians under the False Claims
Act:
(1) one count of submitting false claims,
(2) one count of knowingly making false records
or statements, and
(3) one count of knowingly making false records
or statements material to an obligation to pay
money to the United States.
The District Court again dismissed for failure to
state a claim, this time with prejudice. The relators
now appeal.
II. STANDARDS OF REVIEW AND PLEADING
We review a district court’s dismissal for failure to
state a claim de novo. Vorchheimer v. Philadelphian

43a
Owners Ass’n, 903 F.3d 100, 105 (3d Cir. 2018). Our
job is to gauge whether the complaint states a
plausible claim to relief. Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009).
Plausible does not mean possible. If the allegations
are “merely consistent with” misconduct, then they
state no claim. Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007).
There must be something in the complaint to suggest
that the defendant’s alleged conduct is illegal. Id. at
557, 127 S.Ct. 1955.
But plausible does not mean probable either. Our
job is not to dismiss claims that we think will fail in
the end. See id. at 556, 127 S.Ct. 1955. Instead, we
ask only if we have “enough fact[s] to raise a
reasonable expectation that discovery will reveal
evidence of” each element. Id.
This is the baseline pleading standard for all civil
actions. Fed. R. Civ. P. 8; Iqbal, 556 U.S. at 684, 129
S.Ct. 1937. But the relators allege claims for fraud.
So they must also meet Rule 9(b)’s heightened
pleading requirement. United States ex rel. Moore &
Co., P.A. v. Majestic Blue Fisheries, LLC, 812 F.3d
294, 306-07 (3d Cir. 2016). That rule says that a
party alleging fraud “must state with particularity
the circumstances constituting fraud.” Fed. R. Civ. P.
9(b).
III. THE STARK ACT AND THE FALSE
CLAIMS ACT
A. The Stark Act
The Stark Act protects the public fisc from
Medicare and Medicaid fraud. The Act and its

44a
regulations broadly bar Medicare claims for many
services referred by doctors who have a financial
interest in the healthcare provider. But the statute
creates dozens of exceptions and authorizes the
Department of Health and Human Services to make
even more exceptions for financial relationships that
“do[ ] not pose a risk of program or patient abuse.” 42
U.S.C. § 1395nn(b)(4).
1. Forbidden conduct. The Stark Act opens with a
broad ban. It forbids submitting Medicare claims for
“designated health services” provided under a
“referral” made by a doctor with whom the entity has
a “financial relationship.” Id. § 1395nn(a)(1).
Understanding this ban requires exploring these
three quoted terms, each of which has statutory and
regulatory definitions.
The Stark Act lists several categories of designated
health services, including inpatient hospital services.
Id. § 1395nn(h)(6)(K). And inpatient hospital services
include bed and board, interns’ and residents’
services, nursing, drugs, supplies, transportation,
and overhead. 42 C.F.R. §§ 409.10(a), 411.351.
A referral is a doctor’s request for a designated
health service. 42 U.S.C. § 1395nn(h)(5)(A); 42 C.F.R.
§ 411.351. That definition is broad, but it has an
important exception: services that a doctor performs
personally do not count. 42 C.F.R. § 411.351. That
makes sense; ordinarily, one cannot refer something
to oneself. And the exception’s boundaries also
follow: it does not cover services by a doctor’s
associates or employees, or services incidental to the
doctor’s own services. Id.; Medicare Program;
Physicians’ Referrals to Health Care Entities with

45a
Which They Have Financial Relationships (Phase II);
Interim Final Rule, 69 Fed. Reg. 16054, 16063 (Mar.
26, 2004).
Finally, financial relationships come in two forms:
(1) ownership or investment interests and (2)
compensation
arrangements.
42
U.S.C.
§ 1395nn(a)(2). This case turns on the latter. The
statute defines compensation arrangement to mean
“any arrangement involving any remuneration
between” a doctor and a healthcare provider. Id.
§ 1395nn(h)(1)(A). And remuneration “includes any
remuneration, directly or indirectly, in cash or in
kind.” Id. § 1395nn(h)(1)(B).
2. Exceptions. On its face, the Stark Act’s ban
sweeps in lots of common situations. To separate the
fraudulent wheat from the innocuous chaff, Congress
and the Department of Health and Human Services
have created many exceptions. Here, the Medical
Center argues that exceptions for four types of
compensation arrangements could apply here: bona
fide employment; personal services; fair-marketvalue compensation; and indirect compensation. See
id. § 1395nn(e)(2), (e)(3); 42 C.F.R. § 411.357(l), (p).
All four exceptions have two elements in common.
First, the doctor’s compensation must not “take[ ]
into account (directly or indirectly) the volume or
value of” the doctor’s referrals. 42 U.S.C.
§ 1395nn(e)(2)(B)(ii); accord id. § 1395nn(e)(3)(A)(v);
42 C.F.R. § 411.357(l)(3), (p)(1)(i). Second, the
doctor’s compensation must not exceed fair market
value. 42 U.S.C. § 1395nn(e)(2)(B)(i), (e)(3)(A)(v); 42
C.F.R. § 411.357(l)(3), (p)(1)(i).

46a
In litigation, these exceptions are affirmative
defenses. So once a plaintiff proves a prima facie
violation of the Stark Act, the burden shifts to the
defendant to prove that an exception applies. United
States ex rel. Kosenske v. Carlisle HMA, Inc., 554
F.3d 88, 95 (3d Cir. 2009).
3. No built-in cause of action. The Stark Act
forbids the government to pay claims that violate the
Act. 42 U.S.C. § 1395nn(g)(1). It demands restitution
from those who receive payments on illegal claims.
Id. § 1395nn(g)(2). And it creates civil penalties for
submitting improper claims or taking part in
schemes to violate the Act. Id. § 1395nn(g)(3), (4).
But it gives no one a right to sue. United States ex
rel. Drakeford v. Tuomey, 792 F.3d 364, 374 n.4 (4th
Cir. 2015).
So the Stark Act never appears in court alone.
Instead, it always come in through another statute
that creates a cause of action—typically, the False
Claims Act.
B. The False Claims Act
Under the False Claims Act, any person who
“knowingly presents, or causes to be presented, a
false or fraudulent claim for payment or approval” is
civilly liable to the United States. 31 U.S.C.
§ 3729(a)(1)(A). A Medicare claim that violates the
Stark Act is a false claim under the False Claims
Act. Kosenske, 554 F.3d at 94. The False Claims Act
also makes liable anyone who “knowingly makes,
uses, or causes to be made or used, a false record or
statement material to” a false or fraudulent claim. 31
U.S.C. § 3729(a)(1)(B), (G).

47a
IV. THE RELATORS PLEAD STARK ACT
VIOLATIONS
A prima facie Stark Act violation has three
elements: (1) a referral for designated health
services, (2) a compensation arrangement (or an
ownership or investment interest), and (3) a
Medicare claim for the referred services. See United
States ex rel. Schmidt v. Zimmer, Inc., 386 F.3d 235,
241 (3d Cir. 2004). This combination of factors
suggests potential abuse of Medicare. When they are
all present, we let plaintiffs go to discovery.
Here, no one denies that the defendants made
Medicare claims for designated health services. The
issue is whether the complaint sufficiently alleges
referrals and a compensation arrangement. We hold
that it does. The alleged Medicare abuse is plausible
and deserves more scrutiny.
A. The surgeons referred designated health
services to the hospitals
The relators allege that “[e]very time [the
neurosurgeons] performed a surgery or other
procedure at the UPMC Hospitals, [they] made a
referral for the associated hospital claims.” App. 193
¶234. They are right that these claims are referrals.
As mentioned, the law defines referrals broadly. A
referral is a doctor’s request for any designated
health service that is covered by Medicare and
provided by someone else. 42 C.F.R. § 411.351.
Designated health services include bed and board,
some hospital overhead, nursing services, and much
more. 42 C.F.R. § 409.10(a). And the relators plead
that as the surgeons performed more procedures,

48a
those procedures required (and the hospital provided
and “increased billings for[) ] the attendant hospital
and ancillary services including ... hospital and
nursing charges.” App. 166 ¶104 (emphasis added).
So the plaintiffs plead that the surgeons referred
designated health services to the hospitals.
Treating these services as referrals makes sense.
The Stark Act’s first step is to flag all potentially
abusive arrangements. And doctors who generate
profits for a hospital may be tempted to abuse their
power, raising hospital bills as well as their own pay.
These financial arrangements thus deserve a closer
look. And they will get a closer look only if we call
these arrangements what they are: doctors referring
services to hospitals.
The Department of Health and Human Services
agrees. In Phase I of its Stark Act rulemaking, it
considered this point. It determined that “any
hospital service, technical component, or facility fee
billed by [a] hospital in connection with [a doctor’s]
personally performed service” counts as a referral.
Medicare and Medicaid Programs; Physicians’
Referrals to Health Care Entities with Which They
Have Financial Relationships, 66 Fed. Reg. 856, 941
(Jan. 4, 2001). This is true even “in the case of an
inpatient surgery” where the doctor performs the
surgery. Id.
Then, in Phase II of its rulemaking, the agency
revisited the question and considered narrower
definitions. For instance, many commenters
suggested excluding “services that are performed
‘incident to’ a physician’s personally performed
services or that are performed by a physician’s

49a
employee” from the definition of a referral. 69 Fed.
Reg. at 16063.
But the agency reasonably rejected these
suggestions. A narrower view, it reasoned, would all
but swallow at least one statutory exception. Id. And
it explained that the availability of that and other
exceptions did enough to protect innocent conduct.
Id. “[T]his interpretation is consistent with the
statute as a whole,” which begins by casting a broad
net to scrutinize all potential abuse. Id.
B. The relators’ complaint alleges an indirect
compensation arrangement
A referral is ripe for abuse only when the doctor
who made it has a financial relationship with the
provider. Only then can a doctor profit from his own
referral. The financial relationship here is a
compensation arrangement.
Compensation arrangements can be either direct or
indirect. 42 C.F.R. § 411.354(c). The hospitals did not
pay the surgeons directly. So if there is any
compensation arrangement here, it is indirect. That
requires three elements: First, there must be “an
unbroken chain ... of persons or entities that have
financial relationships” connecting the referring
doctor with the provider of the referred services. Id.
§ 411.354(c)(2)(i). Second, the referring doctor must
get “aggregate compensation ... that varies with, or
takes into account, the volume or value of referrals.”
Id. § 411.354(c)(2)(ii). And third, the service provider
must know, recklessly disregard, or deliberately
ignore that the doctor’s compensation “varies with, or
takes into account, the volume or value of referrals.”

50a
Id. § 411.354(c)(2)(iii). (The parties do not challenge
any of the regulations at issue, so we likewise
assume that they are valid.) The complaint plausibly
pleads enough facts to satisfy each element.
1. An unbroken chain of entities with financial
relationships connects the surgeons with the
hospitals. An unbroken chain of financial
relationships links the surgeons to the hospitals.
First, the Medical Center owns each hospital.
Second, the Medical Center also owns three entities:
Pittsburgh Physicians, Community Medicine, and
Tri-State. Third, each of these three entities employs
and pays at least one of the surgeons. That adds up
to an unbroken chain of financial relationships.
Neither party disputes this.
2. The surgeons’ compensation varies with, or takes
into account, the volume and value of their referrals.
Next, the relators allege that the surgeons’ aggregate
compensation varied with, and took into account,
their referrals. Under the Stark Act and its
regulations, compensation varies with referrals if the
two are correlated. And compensation takes into
account referrals if there is a causal relationship
between the two. The structure of the surgeons’
contracts is enough to plead correlation. And the
surgeons’ suspiciously high compensation suggests
causation.
a. The relators must show either correlation or
causation between compensation and referrals. To
start, we have to tease out the difference between
varies with and takes into account. Section
411.354(c)(2)(ii) uses both phrases. But in other
places, like the exceptions, the Stark Act and its

51a
regulations use only takes into account, not varies
with. 42 U.S.C. § 1395nn(e)(2)(B)(ii), (e)(3)(A)(v); 42
C.F.R. § 411.357(l)(3), (p)(1)(i). So varies with must
mean something different from takes into account.
Here is the most natural reading of both phrases:
Takes into account means actual causation. The
doctor’s pay must be based on or designed to reflect
the volume or value of his referrals. But varies with
means correlation. If compensation tends to rise and
fall as the volume or value of referrals rises and falls,
then the two vary with each other. This reading
gives each phrase independent meaning. And it
makes the scope of indirect compensation
arrangements broader than the scope of the
exceptions.
This makes sense. Correlation does not guarantee
causation, but it is evidence of causation. So the
agency reasonably decided to include as indirect
compensation arrangements those where pay varies
with referrals. 69 Fed. Reg. at 16059. That way, such
arrangements get a closer look. Then, the defendant
gets a chance to show that the correlation is mere
coincidence, not causation. If it does, then the
compensation arrangement can fit within a Stark
Act exception. Id.
Our concurring colleague adopts a less natural
reading. Instead of treating varies with as a broader
phrase meaning correlation, he reads takes into
account as broader. Conc. Op. 419-21. And he limits
this broader phrase to causal relationships, whether
explicit or “implicit (that is, unstated).” Id. So his
reading of the causation requirement makes varies
with (express causation) a subset of takes into

52a
account (express or implied causation). But the Stark
Act’s text and structure are to the contrary.
Textually, the concurrence is right that, read in
isolation, varies with sometimes implies causation.
Varies with can mean correlation, however, and often
does. Mathematicians sometimes use A varies with B
causally, to mean that A is a function of B. But
statisticians often say that A varies with B if A
correlates with B. Thus, a correlation coefficient
expresses the co-variance between two variables.
Timothy C. Urdan, Statistics in Plain English 79-80
(2d ed., Psychology Press 2005); see also Paul
McFedries, Excel Data Analysis 202 (4th ed. 2013)
(“[A] correlation does not prove one thing causes
another. The most you can say is that one number
varies with the other.”) (emphasis added).
Courts likewise use varies with as a synonym for
correlation. Our Court has explained that “a
correlation coefficient ... measures ‘how consistently’
the dependent variable varies in correspondence with
the independent variable.” Jenkins v. Red Clay
Consol. Sch. Dist. Bd. of Educ., 4 F.3d 1103, 1120
n.10 (3d Cir. 1993) (emphasis added). Other courts
do too. E.g., N.A.A.C.P. v. City of Niagara Falls, 65
F.3d 1002, 1005 n.2 (2d Cir. 1995) (“A ‘correlation
coefficient’ is generated, demonstrating how
consistently voter support for a candidate or group of
candidates varies with the racial composition of the
election districts.”) (emphasis added) (quoting
district court); Citizens for a Better Gretna v. Gretna,
636 F. Supp. 1113, 1126 n.32 (E.D. La. 1986) (same).
So we can plausibly read varies with to mean
correlation, not just causation.

53a
And that is the point. Here, varies with is about
correlation, not causation. As our concurring
colleague notes, we do not think the Stark Act
requires relators to plead a “perfect positive
correlation” between doctors’ pay and referrals. Conc.
Op. 421. The beauty of the phrase varies with is that
it carries little technical baggage yet “make[s] clear
that there is no need to establish causation.” Loan
Originator Compensation Requirements Under the
Truth in Lending Act (Regulation Z), Supplementary
Information, 78 Fed. Reg. 11280, 11325-26 (Feb. 15,
2013) (explaining that the final rule uses varies with
as a non-technical substitute for correlates with).
More importantly, as he admits, our concurring
colleague’s approach makes varies with into
surplusage, robbing it of any useful role in the
regulatory scheme. Conc. Op. 422. In 42 C.F.R.
§ 411.354(c)(2)(ii), for example, varies with would be
redundant of every takes into account. It would do no
work. By contrast, our reading casts varies with as
the star of § 411.354(c)(2)(ii). Takes into account gets
its turn to shine in the Stark Act exceptions, where
varies with does not appear. Id. §§ 411.355, 357. On
this reading, the scope of indirect compensation
arrangements is broader than the scope of the
exceptions. Each phrase does real work and serves
an independent purpose.
Faced with two readings, one of which gives each
phrase in a disjunctive list an operative meaning and
another that makes a phrase surplus, we should
follow the “elementary canon of construction” against
surplusage. Colautti v. Franklin, 439 U.S. 379, 392,
99 S.Ct. 675, 58 L.Ed.2d 596 (1979); United States v.

54a
Kouevi, 698 F.3d 126, 133-34 (3d Cir. 2012)
(collecting cases).
Structurally, our approach also reinforces the
Stark Act’s design. It casts a wide net of initial
suspicion, followed by narrower safe harbors. A
correlation between pay and referrals suggests that
hospitals are rewarding doctors for referrals. And
healthcare providers get to use the Stark Act’s
exceptions to show that there is no problematic
causal relationship. Only if they cannot should those
cases go to discovery.
Our concurring colleague’s approach would upend
that structure by denying relators the discovery they
need to prove their cases. In Tuomey, for example,
hospital insiders linked pay with referrals only
during discovery—not in the complaint. Compare
First Amended Complaint, United States ex rel.
Drakeford v. Tuomey, 976 F. Supp. 2d 776 (D.S.C.
2013) (No. 3:05-2858-MBS), ECF No. 151, with J.A.
Combined Vols. I—XIII at 504-14, Tuomey, 792 F.3d
364 (No. 13-2219), ECF No. 39 (testimony of William
(Paul) Johnson) (Tuomey’s CFO admitting that he
feared losing money if doctors treated patients
offsite, so he analyzed the value of doctors’
noncompete agreements that might recapture that
revenue by requiring them to do their procedures at
Tuomey’s hospitals); id. at 1809-22 (testimony of
Kimberly Saccone) (same, by senior consultant); id.
at 335, 4594 (statement by Tuomey’s lawyer Tim
Hewson to CEO, several vice presidents, and key
doctors at a recorded meeting on Jan. 19, 2004)
(“Because of the Stark and Anti-kickback laws, you
can’t explicitly say, ‘Well, it’s because we’re getting

55a
all the referrals for these patients,’ and of course
that’s what we’re doing.”).
And Tuomey was a close case at the motion-todismiss stage. Tuomey itself had received conflicting
legal advice about whether its contracts violated the
Stark Act. Compare Tuomey, 792 F.3d at 371-72
(advice from lawyer Kevin McAnaney), with First
Am. Compl. 25 ¶¶97-98 (advice from law firm Hall &
Render). The truth emerged only through the
cleansing light of discovery, once the relators got to
depose hospital executives and transcribe audio
recordings of executive meetings. But our concurring
colleague’s approach would shut that door,
dismissing such cases before discovery. That would
make it all but impossible for the relator in the next
Tuomey to prevail.
In short, at the pleading stage, a plaintiff must
plead facts that make either correlation or causation
plausible. Here, the relators do both.
b. The structure of the surgeons’ contracts plausibly
alleges correlation between their pay and referrals.
The relators plead that two aspects of the surgeons’
pay varied with their referrals: base salaries and
bonuses. If the surgeons met their quota of Work
Units, they protected their base salaries. And if they
exceeded that quota, they earned a bonus for each
additional Work Unit.
So the surgeons’ pay was facially based only on the
services they personally performed. But every time
they “performed a surgery or other procedure at the
UPMC Hospitals, [they] made a referral for the
associated hospital claims,” like nursing services or

56a
hospital overhead. App. 193 ¶ 234. And the
defendants got to bill Medicare for those referred
services, which could be worth many times more
than the surgeon’s own services.
As a result, the surgeons’ salaries rose and fell with
their referrals. The more procedures they did at the
hospitals, the more referrals they made, and the
more they would earn by maintaining their base
salaries and earning higher bonuses. And just as
their salaries flowed, they also ebbed: the fewer
procedures they did, the fewer referrals they made,
and the less they got paid. Thus, their aggregate
compensation varied with their referrals’ volume and
value.
The Fourth Circuit agrees. In Tuomey, as here, the
doctors’ base salaries and bonuses rose and fell each
year “based solely on” their “personally performed
professional services.” 792 F.3d at 379 (internal
quotation marks omitted). Our concurring colleague
reads the Fourth Circuit’s opinion as limited to
compensation agreements that expressly give doctors
a cut of expenses like technical or facility fees,
beyond the work doctors do personally. Conc. Op.
422-23. But that reading overlooks Tuomey’s facts.
The Tuomey court did not say that the doctors
there took a straight percentage cut of referrals. It
says only that as doctors did more procedures, the
number of Tuomey’s referrals went up—and so did
the doctors’ compensation. See 792 F.3d at 379.
And the briefing in Tuomey clarifies any possible
ambiguity about which collections affected pay by
falling within the scope of a doctor’s “personally

57a
performed professional services.” Id. (internal
quotation marks omitted). The hospital there
insisted that “[n]o component of the physicians’ pay
depended on the amount of Tuomey’s charges or
collections for facility fees.” Appellant’s Final Br. 44,
Tuomey, 792 F.3d 364 (No. 13-2219), ECF No. 50. In
fact, the hospital had rejected “suggested
modifications” to its contracts that would have made
“technical fees ... a component of the physicians’
compensation.” Id. Contrary to our concurring
colleague, the Tuomey record shows that the doctors’
pay was “based on their professional collections for
services that they personally perform[ed], not on any
billings or collections of the Hospital for its services.”
Mem. in Supp. of Def.’s Mot. to Dismiss 5, Tuomey,
976 F. Supp. 2d 776, ECF No. 64-1 (emphasis added).
The same is true here.
But as the Fourth Circuit observed, these
personally performed services almost always came
with referrals for ancillary hospital services. 792
F.3d at 379. And the healthcare provider got to bill
Medicare for those services. Id. The more procedures
a doctor did at the hospital, the more referrals he
made, and the more he could make in both base
salary and bonuses. Id. Thus, the Fourth Circuit
“th[ought] it plain that a reasonable jury could find
that the physicians’ compensation varied with the
volume or value of actual referrals.” Id. at 379-80
(emphasis added).
We agree with the Fourth Circuit’s logic. It applies
equally here. So the relators have pleaded that the
surgeons’ pay varied with their referrals.

58a
Our concurring colleague fears that our rationale
casts suspicion on any compensation agreement
based on a doctor’s “own labor.” Conc. Op. 423. Not
so. The Stark Act kicks in only when a doctor’s pay
varies with Medicare or Medicaid referrals tied to
that doctor’s personal labor. If a doctor’s pay does not
vary with the volume or value of Medicare or
Medicaid referrals, the Stark Act plays no role.
But here, the relators have pleaded that the
doctors’ pay correlated with the value of their
Medicare referrals. That correlation is enough to
plead the second element of an indirect compensation
arrangement. The relators need not also plead
causation. But they do anyway.
c. The surgeons’ suspiciously high compensation
suggests causation. Compensation for personal
services above the fair market value of those services
can suggest that the compensation is really for
referrals. This is just common sense. Healthcare
providers would not want to lose money by paying
doctors more than they bring in. They would do so
only if they expected to make up the difference
another way. And that way could be through the
doctors’ referrals.
This may not be obvious on the face of the statute
and regulations. The Stark Act often treats fair
market value as a concept distinct from taking into
account the volume or value of referrals. For example,
these two concepts are separate elements of many
Stark Act exceptions. E.g., 42 U.S.C. § 1395nn(e)(2)
(bona fide employment), (e)(3) (personal service); 42
C.F.R. § 411.357(l) (fair-market-value compensation),
(p) (indirect compensation). And the definition of an

59a
indirect compensation arrangement includes taking
referrals into account, but not fair market value. 42
C.F.R. § 411.354(c)(2)(ii).
But the Act’s different treatment of these concepts
does not sever them. To start, just because a statute
has two elements does not mean that one can never
be evidence of the other. Theft requires taking
another’s property with intent. Those are two
elements, but the fact of taking property can be
circumstantial evidence of intent.
So too here. Perhaps not all payments above fair
market value are evidence of taking into account the
doctor’s referrals. But common sense says that
marked overpayments are a red flag. Anyone would
wonder why the hospital would pay so much if it was
not taking into account the doctor’s referrals for
other services. And we do no violence to the statutory
text by seeking an answer to that question.
The agency confronted this question directly. It
remarked that even “fixed aggregate compensation
can form the basis for a prohibited ... indirect
compensation arrangement” if it “is inflated to reflect
the volume or value of a physician’s referrals.” 69
Fed. Reg. at 16059 (emphasis added). The same is
true
of
“unit-of-service-based
compensation
arrangements,” like the one here. Id. Excessive
compensation is thus a sign that a surgeon’s pay in
fact takes referrals into account.
So aggregate compensation that exceeds fair
market value is smoke. It suggests that the
compensation takes referrals into account. And the
relators here plead five facts that, viewed together,

60a
make plausible claims that the surgeons’ pay
exceeded their fair market value. First, some
surgeons’ pay exceeded their collections. Second,
many surgeons’ pay exceeded the 90th percentile of
neurosurgeons nationwide. Third, many generated
Work Units far above industry norms. Fourth, the
surgeons’ bonus per Work Unit exceeded what the
defendants collected on most of those Work Units.
And finally, the government alleged in its settlement
agreement that the Medical Center had fraudulently
inflated the surgeons’ Work Units. That much smoke
makes fire plausible.
i.
Pay exceeding collections. Paying a worker
more than he brings in is suspicious. And the
complaint alleges that at least three surgeons (Drs.
Bejjani, Spiro, and El-Kadi) were paid more than the
Medical Center collected for their services. The
complaint also alleges that the Medical Center
credits surgeons with 100 percent of the Work Units
that they generate, even if it cannot collect on all of
them. So at least three surgeons (maybe more) were
paid more than they bring in.
ii. Pay exceeding the 90th percentile. The relators
allege that “[c]ompensation exceeding the 90th
percentile is widely viewed in the industry as a ‘red
flag’ indicating that it is in excess of fair market
value.” App. 191 ¶223. The defendants do not deny
this.
Several surgeons were paid more than the 90th
percentile. For example, the relators point to the
compensation of Drs. Abla, Spiro, Kassam, and
Bejjani between 2008 and 2011. Apart from Dr. Spiro
in 2008, each of these surgeons was paid more than

61a
even the highest estimate of the 90th percentile for
all U.S. neurosurgeons in all four years. And
depending on which estimate of the 90th percentile
you use, they were sometimes paid two or three
times more than the 90th percentile. Dr. Bejjani’s
2011 bonus alone exceeded the 90th percentile of
total compensation in some surveys.
iii. Extreme Work Units. The relators also allege
facts from which we can reasonably infer that the
surgeons generated far more Work Units than
normal. Many neurosurgeons “were routinely
generating [Work Units] exceeding by an enormous
margin the 90th percentile as reflected in widelyaccepted market surveys.” App. 171 ¶ 126. Even if
we look only at the highest industry estimates, all
but one of the surgeons reported Work Units above
the 90th percentile in 2006 and 2007. In 2008 and
2009, eight of the twelve named surgeons exceeded
the highest estimate of the 90th percentile. A few
even seemed “super human,” racking up two to three
times the 90th percentile. App. 169 ¶ 117.
In short, most of the surgeons generated Work
Units at or above the 90th percentile. Some of their
numbers were unbelievably high. And because their
pay depends in large part on their Work Units, it is
fair to infer that most of their pay was also at or
above the 90th percentile.
iv. Bonuses
exceeding
the
Medicare
reimbursement rate. Once a surgeon had enough
Work Units to earn bonus pay, the bonus per Work
Unit was more than Medicare would pay for each
one. The surgeons’ bonus per Work Unit was $45.
But the Medicare reimbursement rate was only

62a
about $35. So once surgeons became eligible for
bonuses, the defendants took an immediate loss on
every Work Unit submitted to Medicare.
On its own, this would not show that the surgeons
were overpaid. Medicare and Medicaid are well
known as bottom-billers. They pay less than private
insurers. Though the defendants lost some money on
Medicare Work Units, perhaps they made it back
with Work Units billed to other insurers.
But the relators also allege that “the majority of all
claims submitted by the [defendants] ... were
submitted to federal health insurance programs such
as Medicare and Medicaid.” App. 193 ¶233. We
cannot assume that private payments suffice to
make up the difference. Doing so would disregard
our job at this stage: to draw reasonable inferences
in favor of the plaintiffs.
In short, the defendants took an immediate
financial hit on Work Units for a majority of their
claims. This is yet another sign that the surgeons’
pay took referrals into account.
The defendants disagree. They argue that the
surgeons earn high salaries because of bona fide
bargaining with their employers. Their salaries
supposedly represent the market’s demand for their
surgical skill and experience.
This argument fails for two reasons. First, the
complaint says nothing about the surgeons’ skill and
experience or the Pittsburgh market for surgeons.
On this motion to dismiss, we cannot go beyond the
well-pleaded facts in the complaint.

63a
Second, a bare claim of bona fide bargaining is not
enough. The Stark Act recognizes that related
parties often negotiate agreements “to disguise the
payment of non-fair-market-value compensation.”
Kosenske, 554 F.3d at 97. We trust that bona fide
bargaining leads to fair market value only when
neither party is “in a position to generate business
for the other.” Id.; 42 C.F.R. § 411.351 (defining “fair
market value” and “general market value”). But that
is not true here. The surgeons and the Medical
Center can generate business for each other. So we
cannot assume that any bargaining was bona fide or
that the resulting pay was at fair market value.
v. The possibility of fraud. Finally, the surgeons’
high pay may have been based on fudging the
numbers. Not only were their individual Work Units
“significantly out of line with industry benchmarks,”
but the Neurosurgery Department as a whole
realized astounding “annual growth rates of work
[Units] ... of 20.3%, 57.1% and 20.0%” in 2007, 2008,
and 2009. App. 171 ¶¶127-28. Two of the surgeons
more than doubled their output in just a few years.
The relators allege that the defendants got this
growth by “artificially inflat[ing] the number of
[Work Units] in a number of ways.” App. 171 ¶130.
Alleging this fraud, the relators’ first complaint
included claims “relating to physician services
submitted by” the defendants along with the
“hospital claims” currently before us. App. 189 ¶217
(emphases in original) The government chose to
intervene as to the former claims, settling them with
the defendants for almost $2.5 million.

64a
The relators’ current complaint quotes that
settlement agreement. In it, the government accused
the surgeons of many fraudulent practices: They
claimed to have acted as assistants when they did
not. They claimed to have done more extensive
surgeries than they did. And they chose the wrong
codes for surgeries. So “claims submitted for these
physician services resulted in more reimbursement
than would have been paid” otherwise. App. 188-89
¶216.
We are careful not to overstate the point. This
settlement is not an admission of guilt. It proves no
wrongdoing. But at the 12(b)(6) stage, we are looking
only for plausible claims, not proof of wrongs. And
the government’s choice to intervene after years of
investigation and its allegations in the settlement
are cause for suspicion.
The question is not whether a doctor was able to
use an otherwise-valid compensation scheme as a
vehicle for fraudulent billing. Not every fraudulent
Medicare bill made at a hospital will give rise to a
Stark Act violation. Here, however, where the
compensation scheme produced results bordering on
the absurd, relators plausibly assert that the system
may have been designed with that outcome in mind.
The relators allege five sets of facts that suggest
that the surgeons’ pay exceeded fair market value:
pay exceeding collections, pay above the 90th
percentile, extreme Work Units, bonuses above the
Medicare reimbursement rate, and the settlement.
That is plenty of smoke. We need not decide whether
any of these allegations alone would satisfy the
relators’ pleading burden. Together, they plausibly

65a
suggest that the surgeons’ pay took their referrals
into account.
*****
So the relators have met their burden twice over.
They allege that the surgeons’ pay correlated with
their referrals. That alone is enough to meet their
burden. They also plausibly allege causation. Thus,
the relators have pleaded more than enough facts to
suggest an indirect compensation arrangement.
3. The hospitals knew that the surgeons’
compensation varied with, or took into account,
referrals. The final element of an indirect
compensation arrangement is scienter. To show
scienter, the relators’ pleadings must allege that the
hospitals that provided the referred services either
(1) knew, (2) deliberately ignored, or (3) recklessly
disregarded that the surgeons got “aggregate
compensation that varie[d] with, or t[ook] into
account, the volume or value of referrals.” 42 C.F.R.
§ 411.354(c)(2)(iii). They allege this too.
To begin, the Medical Center controls all the
hospitals and the surgeons’ direct employers. It owns
each hospital. And it owns Pittsburgh Physicians,
Community Medicine, and Tri-State. So the Medical
Center “has unfettered authority with respect to
most members of the [medical system] and
significant authority (including with respect to
financial and tax matters) with respect to the
remaining members.” App. 146-47 ¶19 (quoting a
Medical Center tax filing).
Further, many officers and board members of these
entities overlapped. For example, one person

66a
simultaneously served as an executive vice president
of the Medical Center as well as the president and a
board member of Pittsburgh Physicians. And he
signed surgeons’ pay agreements for Pittsburgh
Physicians. The relators identify nine others who
served on the board of both the Medical Center and
another entity in the medical system. Authority was
so centralized that a single person signed a
settlement agreement on behalf of all the defendants
that were part of the medical system. And with
common control comes common knowledge.
The common knowledge included both the
surgeons’ pay and their referrals. The Medical
Center took part in forming, approving, and
implementing the surgeons’ pay packages. So it knew
their structure. The Medical Center also had a
central coding and billing department that handled
billing for its subsidiaries. So it knew about the
surgeons’ referrals.
With both sets of data in front of it, we can
plausibly infer that the Medical Center knew the
surgeons’ compensation varied with or took into
account their referrals. And as the Medical Center
knew that, so did the hospitals. They had all the data
right in front of them. They knew that the surgeons’
pay and Work Units were out of line with industry
survey data. Even if they did not actually know that
the surgeons’ pay was correlated with their referrals,
they at least deliberately ignored or recklessly
disregarded that fact. Thus, the complaint alleges
that both the Medical Center and hospitals had
scienter.
*****

67a
This means that the relators have successfully
pleaded the third and final element of a Stark Act
violation: scienter. But they must plead one more
thing to survive a motion to dismiss. We must now
consider whether the relators have pleaded a
plausible prima facie case under the False Claims
Act.
V. THE RELATORS PLEAD FALSE CLAIMS
ACT VIOLATIONS
The relators plead their Stark Act claims as
violations of the False Claims Act. So their pleadings
must satisfy all the elements of the False Claims Act.
They do. And they satisfy Rule 9(b)’s heightened
pleading standard. Last, we hold that the Stark Act’s
exceptions are not additional elements of a prima
facie case. But even if they were, the relators have
plausibly pleaded that no exception applies here.
A. The pleadings satisfy all three elements of
the False Claims Act
To make out a prima facie case, the relators must
plead three elements: “ ‘(1) the defendant presented
or caused to be presented to an agent of the United
States a claim for payment; (2) the claim was false or
fraudulent; and (3) the defendant knew the claim
was false or fraudulent.’ ” Schmidt, 386 F.3d at 242
(quoting Hutchins v. Wilentz, Goldman & Spitzer,
253 F.3d 176, 182 (3d Cir. 2001)). They have alleged
enough facts to plead all three elements.
First, by submitting claims to Medicare and other
federal health programs, the defendants presented
claims for payment to the government.

68a
Second, the relators allege that these claims were
false. A Medicare claim that violates the Stark Act is
a false claim. Kosenske, 554 F.3d at 94. And we have
already explained at length why the Medicare claims
here plausibly violated the Stark Act.
Third, the relators’ allegations plead scienter. Just
like the Stark Act, the False Claims Act requires
that the defendants know, deliberately ignore, or
recklessly disregard the falsity of their claim. 31
U.S.C. § 3729(b)(1)(A). But it does not require a
specific intent to defraud. Id. § 3729(b)(1)(B).
The claims are false because they allegedly violated
the Stark Act. The question is whether the
defendants at least recklessly disregarded that
possibility. The defendants had a centralized billing
department and were familiar with the Stark Act
itself, so they knew that they submitted Medicare
claims for referred designated health services. That
leaves only whether the defendants knew that the
hospitals and surgeons had an indirect compensation
agreement.
The complaint alleges that the defendants at least
recklessly disregarded that possibility. They knew
their own corporate structure. We have already
explained how they knew or recklessly disregarded
that the surgeons’ pay varied with their referrals.
And we have also explained how they knew or
recklessly disregarded that their surgeons’ pay
exceeded fair market value and thus plausibly took
referrals into account. So the relators have pleaded a
prima facie claim under the False Claims Act.

69a
B. The pleadings satisfy Rule 9(b)
The relators’ complaint also satisfies Rule 9(b)’s
particularity requirement. This requires a plaintiff to
allege “ ‘all of the essential factual background that
would accompany the first paragraph of any
newspaper story—that is, the who, what, when,
where, and how of the events at issue.’ ” Majestic
Blue Fisheries, 812 F.3d at 307 (quoting In re
Rockefeller Ctr. Props., Inc. Secs. Litig., 311 F.3d 198,
217 (3d Cir. 2002)). The complaint gives us all these
necessary details:


Who? The defendants: the Medical Center and
Pittsburgh Physicians.



What? The defendants submitted or caused to
be submitted false Medicare claims.



When? From 2006 until now.



Where? The Medicare claims were submitted
from the Medical Center’s centralized billing
facility, while the referred services were
provided at the Medical Center’s twenty
hospitals.



How? When the Medical Center submitted a
claim, it certified compliance with the Stark
Act. The complaint makes all the allegations
discussed above. We will not repeat them. But
they detail exactly how these claims violated
the Stark Act.

Rule 9(b) does not require the relators to plead
anything more, such as the date, time, place, or
content of every single allegedly false Medicare
claim. The falsity here comes not from a particular

70a
misrepresentation, but from a set of circumstances
that, if true, makes a whole set of claims at least
prima facie false. It is enough to allege those
circumstances with particularity. Doing so “inject[s]
precision or some measure of substantiation into
[the] fraud allegation” and “place[s] the defendant on
notice of the precise misconduct with which [it is]
charged.” Alpizar-Fallas v. Favero, 908 F.3d 910, 919
(3d Cir. 2018) (quoting Frederico v. Home Depot, 507
F.3d 188, 200 (3d Cir. 2007)) (last alteration in
original; internal quotation marks omitted). And the
relators have done so.
C. Pleading Stark Act exceptions under the
False Claims Act
One final issue is how the Stark Act interacts with
the False Claims Act. The defendants argue that the
False Claims Act’s elements of falsity and knowledge
turn the Stark Act’s exceptions into prima facie
elements of the False Claims Act. On their reading,
the relators would have to plead that no exception
applies here.
We reject that argument. The defendants retain
the burden of pleading Stark Act exceptions even
under the False Claims Act. And even if the relators
bore that burden, they have met it here.
1. The burden of pleading Stark Act exceptions
stays with the defendant under the False Claims Act.
The defendants argue that the False Claims Act’s
knowledge and falsity elements turn the Start Act’s
exceptions into prima facie elements. Their logic is
simple and cogent: The False Claims Act penalizes
only false claims. 31 U.S.C. § 3729(a)(1). False claims

71a
include claims submitted in violation of the Stark
Act. See Kosenske, 554 F.3d at 94. But if an exception
to the Stark Act applies, then the claim is not false.
And if the defendant thinks that an exception
applies, then the defendant does not know that the
claim is false. So, according to the defendants, to
plead a False Claims Act claim based on Stark Act
violations, a relator must plead that no Stark Act
exception applies and that the defendant knows that
none applies. Otherwise, the relator pleads neither
falsity nor knowledge.
Though this argument has force, we reject it. Our
precedent compels this result. Like this case,
Kosenske was a False Claims Act case based on Stark
Act violations. Id. It placed the burden of proving a
Stark Act exception on the defendant. Id. at 95;
accord Tuomey, 792 F.3d at 374. And we see no
reason to split up the burdens of pleading and
persuasion. It is thus the defendants’ burden to plead
a Stark Act exception, not the relators’ burden to
plead that none exists.
2. Even if the relators bore this pleading burden,
they have met it. In any event, the relators here
plausibly plead that no Stark Act exception applies.
The parties identify four that could apply here:
exceptions for bona fide employment, personal
services, fair-market-value pay, and indirect
compensation. All four exceptions require that the
surgeons’ compensation not exceed fair market value
and not take into account the volume or value of
referrals.
We have already explained how the relators
plausibly plead that the surgeons were paid more

72a
than fair market value. And that itself suggests that
their pay may take into account their referrals’
volume or value. So the relators plausibly plead that
no Stark Act exception applies.
D. Practical concerns
Our concurring colleague raises legitimate concerns
about opening the floodgates of litigation. Top
hospitals that offer doctors performance bonuses, he
argues, could be sued and forced to suffer through
discovery or to settle.
Although understandable, this fear is overstated.
Qui tam actions face hurdles even before they reach
a motion to dismiss. The government can dismiss
them over the relator’s objection. 31 U.S.C.
§ 3730(c)(2)(A). Federal courts are not the first line of
defense against abusive suits; the Justice
Department is. Indeed, it recently took a more
aggressive approach to dismissing qui tam actions,
urging its lawyers to consider dismissal every time
the government decides not to intervene. Michael D.
Granston, U.S. Dep’t of Justice, Memorandum:
Factors for Evaluating Dismissal Pursuant to 31
U.S.C. 3730(c)(2)(A), at 1 (2018).
While our Court has not yet specified the standard
of review for a § 3730(c)(2)(A) dismissal, our sister
circuits defer a great deal to the Justice Department.
Swift v. United States, 318 F.3d 250, 252 (D.C. Cir.
2003) (recognizing the government’s “unfettered
right” to dismiss qui tam actions); United States ex
rel. Sequoia Orange Co. v. Baird-Neece Packing
Corp., 151 F.3d 1139, 1145 (9th Cir. 1998) (adopting
a “rational relation” test for reviewing dismissals).

73a
That deference gives the government plenty of room
to make good on its stated intention to scrutinize and
dismiss more qui tam actions than in the past. So
there is little reason to fear that a flood of frivolous
cases will reach discovery.
VI. CONCLUSION
Evaluating a motion to dismiss is “a contextspecific task that requires the reviewing court to
draw on its judicial experience and common sense.”
Iqbal, 556 U.S. at 679, 129 S.Ct. 1937. Our
experience and common sense tell us that the
relators state a plausible claim that the Medical
Center and Pittsburgh Physicians have violated the
Stark Act and the False Claims Act.
The facts they plead, if true, satisfy every element
of those statutes: A chain of financial relationships
linked the surgeons to the hospitals. The surgeons
referred many designated health services to the
hospitals, generating ancillary hospital services and
facility fees. Their pay necessarily varied with the
volume of those referrals. The hospitals made
Medicare claims for those referrals. And the
defendants allegedly knew all this.
With all this smoke, a fire is plausible. So this case
deserves to go to discovery. Once the discovery is in,
it may turn out that there is no fire. We do not
prejudge the merits. But this is exactly the kind of
situation on which the Stark and False Claims Acts
seek to shed light. We will thus reverse the District
Court’s dismissal and remand for further
proceedings.

74a
AMBRO, Circuit Judge, concurring in the judgment
The Stark Act prescribes strong medicine for a very
specific evil. The core concern is that if doctors have
financial interests in other medical service providers,
they will have a monetary incentive to refer patients
to those providers, even if that is not in the patient’s
best interest. For example, if a doctor owns a stake
in an entity that does blood tests and other lab work,
she or he might send patients to that entity for tests
even though it is not as good as its competitors, or
might recommend tests that the patient does not
truly need. The key is that the doctor has a financial
interest in the services that someone else performs.
That is very different from this case. The
physicians operating at UPMC’s neurosurgery
department are, according to the terms of their
contracts, paid for the work they personally perform.
True, this encourages the surgeons to perform more
procedures, creating a similar potential for
misaligned interests as the arrangements proscribed
by the Stark Act. And true, the relators have alleged
significant fraud by the hospital, inflating the work
these surgeons performed and billing the
Government for things that never happened. The
majority places great emphasis on the general
atmospherics of fraud around UPMC, and certainly if
these allegations are true, then the hospital has
much it must answer for.
But the Stark Act is not concerned with general
fraud and misrepresentation. Those claims were
addressed by UPMC’s settlement with the
Government. Nor, as I read the statute and its
accompanying regulations, are they concerned with

75a
the entirely standard compensation structure
between UPMC and these surgeons. The majority
makes much of the notion that where there is smoke,
there might also be fire, and I am sympathetic to
that approach. In this case, however, I worry we are
sending signals to hospitals throughout the Third
Circuit, and the nation, that their routine business
practices are somehow shady or suspicious and could
leave them vulnerable to significant litigation, with
all the trouble and expense that brings. Accordingly,
I do not join in all the majority opinion’s reasoning.
I do, however, agree with many of my colleagues’
conclusions—enough that I am able to concur in
allowing the case to proceed at this time. The Court
is correct that there are referrals when one of the
surgeons employed by UPMC’s subsidiary UPP
performs a procedure at a UPMC hospital. Although
the physician’s own part in the surgery is not a
referred service, everything else that goes into the
operation is, from the operating room itself to the
equipment to the other hospital employees—nurses,
anesthesiologists, medical technicians, and so on—
involved. This is the “technical component of the
surgical service.” See Medicare and Medicaid
Programs; Physicians’ Referrals to Health Care
Entities With Which They Have Financial
Relationships (Phase I), 66 Fed. Reg. 856, 941 (Jan.
4, 2001). Because these are referred services for
which the hospital billed Medicare, two of the three
elements of a Stark Act violation are present. See
Maj. Op. at 405-06 (stating the elements of a Stark
Act claim as “(1) a referral for designated health
services, (2) a compensation arrangement (or an
ownership or investment interest), and (3) a

76a
Medicare claim for the referred services.”). The only
question is whether there was a “compensation
arrangement” within the meaning of the statute and
regulations.
I also agree with the majority that the burden of
pleading Stark Act exceptions falls on the
defendants. We held in United States ex rel. Kosenske
v. Carlisle HMA, Inc., 554 F.3d 88 (3d Cir. 2009),
that these exceptions function as affirmative
defenses. In theory things may be different in the
context of a False Claims Act suit, where the relators
bear the burden of proving intent and therefore must
plead that the defendants knew the claims they
submitted were false. If they fail to do so, it would
likely be appropriate to dismiss on that basis. But
the majority persuasively explains why that is not
what we have at this time: because the language of
the exceptions tracks the relevant definition of a
compensation arrangement, it is virtually impossible
that the exceptions could apply if the defendants are
covered by the Stark Act in the first place. Moreover,
in order to invoke any of the exceptions, the
defendants would have to show compensation that
did not exceed fair market value, and the majority
aptly explains why, at least at the motion-to-dismiss
stage, the complaint plausibly alleges that the
defendants knew the compensation here did exceed
that standard.
And I agree with the Court that the relators have
adequately pleaded a causal relationship between
the physicians’ referrals to UPMC and their
compensation. This is a close question for me,
because many of the factors the majority points to as
suspicious and indicating causation would likely be

77a
present in many cases where nothing untoward has
occurred. For example, aggregate compensation
above the 90th percentile will be found, after all, in
10% of all cases by definition. The relators make
much of the fact that the bonus for each “work
relative value unit” (“wRVU”) exceeds the Medicare
reimbursement rate, but statistics cited in the
complaint itself suggest that the $45/wRVU rate is
actually below the national average compensation
per wRVU. See Appellee’s Br. at 49. (Dividing the
listed median total compensation figures by the
median wRVU totals from 2009 suggests a rate
between $50 and $70 per wRVU. This is not
mathematically precise, because these are median
rather than average figures, but it is clear enough
that $45 per wRVU is not aberrantly high. The
difference is presumably made up through nonMedicare patients being charged at significantly
higher rates.) Thus, for me, that the physicians
accrued large wRVU totals does not especially
suggest that their rate of compensation was
excessive.
Another problem I have is the possibility that
UPMC may have defrauded the Government by
inflating the physicians’ wRVU totals does not
suggest that the surgeons were compensated for the
value of their referrals, but that they were
compensated for nothing, as the hospital (if these
allegations are true) simply stole money from the
Government and distributed some of those ill-gotten
gains to the surgeons. That may well have been
illegal, but it is not the kind of illegality covered by
the Stark Act. Instead, these fraud claims were
covered by the Government’s $2.5 million settlement

78a
with UPMC (which, for an organization that so
dominates the market, is a modest figure), and are
no longer before us.
I am therefore concerned if any one of these factors,
standing alone, would be enough to raise a plausible
inference of a Stark Act violation. But as the
majority rightly notes, we are not dealing with only
one of these indicators but with all of them together.
In this context, I agree that there is enough “smoke,”
as the Court puts it, at this early stage. Very possibly
there is no Stark Act problem here (whatever other
problems there may have been with the UPMC
neurosurgery department). But the collection of
suspicious circumstances argues that the case should
proceed to discovery so that we can find out one way
or the other. I therefore concur in reversing the
District Court and denying the motion to dismiss.
I write separately, however, because I cannot agree
with the majority that the relators met their burden
simply by pleading that the neurosurgeons’
compensation correlated with the volume or value of
their referrals. To show a compensation arrangement
as defined by the Stark Act, relators must establish a
number of elements, and, as the majority correctly
states, only one of those elements is in doubt here:
Did the surgeons receive “aggregate compensation ...
that varies with, or takes into account, the volume or
value of referrals” from the surgeons to UPMC
(emphasis added)? My colleagues understand the
phrase “takes into account” to mean an express
cause-and-effect relationship between referrals and
compensation, while “varies with,” on its
understanding, applies to any situation in which the
physicians’ compensation correlates with the volume

79a
or value of their referrals. This means any situation
where, if one tends to be higher, the other tends to be
higher as well.
I disagree, as I do not think that this language
includes cases of mere correlation standing alone. To
begin with, I have some doubt that the drafters of
this regulation actually intended for there to be
much difference between “varies with” and “takes
into account.” But assuming that a difference does
exist, I would most naturally read “varies with” to
mean that compensation is expressly based, at least
in part, on the volume or value of referrals. “Takes
into account,” then, is a broader term that can
include implicit (that is, unstated) causal
relationships as well as explicit ones, but still
requires more than mere correlation.
These relationships are somewhat difficult to
understand in the abstract (set theory is notoriously
counterintuitive), so here is an example of how the
concepts might play out. If one physician’s contract
provided for a certain base salary (say, $250,000) and
then a bonus equal to a percentage of the hospital’s
revenues from any referred services, that would be
compensation that “varies with” referrals. On the
other hand, if another surgeon’s contract only
provides for a flat annual salary (say, $450,000), but
there is evidence that the hospital chose the higher
number because of the value it derived from the
surgeon’s referrals, that would be compensation that
“takes into account” referrals, even though it does
not expressly “vary with” them. Of course, if
compensation explicitly “varies with” referrals, then
it will also “take [them] into account,” as on my
reading the former is a subset of the latter.

80a
As I read the regulations, however, neither term
includes cases of correlation standing by itself
without any alleged causal relationship. 1 This is
consistent with common usage. If a baseball player’s
contract provided him a bonus for every base hit
during the course of a season, we would not say that
his compensation “varied with” his total number of
runs batted in, even though hits and RBIs are closely
correlated. The only dictionary I have found offering
a definition of “varies with” is “to become different
based on or according to some determining factor,” or
“to change according to something.” Vary with,
Idioms
by
The
Free
Dictionary,
https://idioms.thefreedictionary.com/vary+with (last
accessed August 15, 2019). Thus, in order for
compensation to “vary with” a certain factor, that
factor must be an express input to the compensation
formula. Thus, where a surgeon gets a flat $250,000
annually but with an added referral bonus for the
hospital’s facility fee, the referral fees are an express
input
into
the
higher-than-$250,000
total
compensation.
The majority acknowledges this usage of “vary
with,” yet goes on to suggest that statisticians (as
distinct from mathematicians, apparently) also use it
to mean simple correlation. And, to be fair, it does
cite a handful of examples of the phrase being used
this way. Several of the authorities it cites for this
proposition, however, do not actually use the phrase.
Our Court’s decision in Jenkins v. Red Clay Consol.
1

The majority evidently agrees that “takes into account”
suggests a causal relationship. I therefore focus on the
interpretation of “varies with,” which is where we disagree.

81a
Sch. Dist. Bd. of Educ., 4 F.3d 1103, 1120 n.10 (3d
Cir. 1993), instead used “varies in correspondence
with.” This is a meaningful distinction because “in
correspondence with” contemplates simply that two
things tend to move together (i.e., are correlated), not
that one of them changes directly as a function of the
other. And the book on general statistics cited, as
opposed to the one on data analysis in Microsoft
Excel, offers only an explanation of the basic
concepts of correlation; the phrase “vary with” or
“varies with” does not appear either at the cited
pages or elsewhere in the work. See Timothy C.
Urdan, Statistics in Plain English 79-80 (3d ed.,
Psychology Press 2010).
That exposition of correlation does, however,
expose a further problem with the majority’s reading:
correlation is not an absolute matter. Rather, it
ranges from a perfect positive correlation of +1.00 to
a perfect negative correlation of -1.00. Id. at 80. At
what point along this range would the majority say
that compensation “varies with” the volume or value
of referrals? A correlation coefficient above 0.50?
Above 0.75? The majority notes this ambiguity but
does not resolve it, instead claiming that this lack of
“technical baggage,” Maj. Op. at 408, is a point in its
favor.2
2

Indeed it is not clear from the majority’s reading that a
negative correlation would not suffice to show compensation
that “varies with” referrals under the Stark Act regulations.
The Federal Register commentary on a rule pertaining to the
Truth in Lending Act that did use “vary with” essentially as a
synonym for correlation made clear that the relationship could
be positive or negative, so long as it is “consistent” See Loan
Originator Compensation Requirements Under the Truth in

82a
Of course, there is nothing before us to suggest
exactly what the correlation coefficient is here.
Instead we have only the general sense that two
things will tend to happen at the same time. As
UPMC points out, that is only a rough tendency. Two
neurosurgeons might perform surgeries at UPMC on
the same day each involving 10 wRVUs from the
surgeons, but one surgery involves $100 of referrals
to the hospital for facility services while the other
involves $1,000. Under the contract in this case,
those two surgeons would be paid the same amount
for their two procedures (effectively $450, or $45 per
wRVU, assuming they have enough wRVUs to get
their productivity bonus for the year). How, then, can
we say that compensation “varies with, or takes into
account,” the volume or value of referrals when two
procedures with the same wRVUs, but wildly
different amounts of referrals, will result in the same
compensation?
The majority charges that my reading of the
statute creates surplusage because I see “varies
with” as a subset of “takes into account.” There
would thus be no meaningful difference between the
full phrase “varies with, or takes into account,”
which appears three times in 42 C.F.R. § 411.354,
and “takes into account” standing on its own, which
appears three more times in § 411.354 and
throughout § 411.357 (which defines the exceptions
to the definition of compensation arrangements from
§ 411.354). That is correct; as noted, I suspect the
Lending Act (Regulation Z), Supplementary Information, 78
Fed. Reg. 11280, 11326 (Feb. 15, 2013). Is the same true here? I
would assume not, but the majority does not say.

83a
difference in wording does not signify any change in
meaning. Rather I would take “varies with” as an
archetypal example of what it means to “take
[something] into account.” The latter expression can
then occur on its own as a convenient shorthand for
the full phrase.3
This usage is made clear by § 411.354(d), which
uses “takes into account” on its own. That subsection
defines “[s]pecial rules on compensation” applicable
to the definitions in § 411.354(c)(2), where the full
phrase “varies with, or takes into account,” is used. It
states that “[u]nit-based compensation ... is deemed
not to take into account ‘the volume or value of
referrals’ if the compensation is fair market value for
services or items actually provided and does not vary
during the course of the compensation arrangement
in any manner that takes into account referrals.” Id.
§ 411.354(d)(2). So whereas § 411.354(c)(2) speaks of
compensation that “varies with, or takes into
account,” referrals, the special rule in § 411.354(d)
states that compensation shall not be considered to
“take into account” referrals if certain conditions are
met. This implies that the drafters of these
regulations did not intend any change in meaning

3

Contrary to the majority’s suggestion, this does not deny or
rob “vary with” of “any useful role in the regulatory scheme.”
Making explicit what would otherwise be implicit, or offering
specific examples of general provisions, is a useful textual
function even if the text would be fairly read to mean the same
thing without the phrase in question. See generally Akhil Reed
Amar, Constitutional Redundancies and Clarifying Clauses, 33
Val. U. L. Rev. 1, 7 (1998) (noting that the United States
Constitution itself “contains a good many provisions that are
best read as declaratory and clarifying.”).

84a
based on whether they included the words “varies
with” in a given instance of this phrase.
The majority invokes United States ex rel.
Drakeford v. Tuomey, 792 F.3d 364 (4th Cir. 2015),
which held—after a jury trial where Tuomey
Healthcare System was found to have violated the
Stark Act—that a “reasonable jury could have found
that Tuomey’s contracts in fact compensated the[ir]
physicians in a manner that varied with the volume
or value of referrals.” The Tuomey physicians’
compensation
depended
on
the
hospital’s
“collections”
for
“the
physicians’
personally
performed services.” The majority’s extraordinarily
thorough analysis of the record in Tuomey suggests
convincingly that, in fact, this meant only the portion
of the hospital’s collections that pertained directly to
each physician’s own labor. That would be analogous
to the metric used here, wRVUs. Thus the majority
sees Tuomey as supporting its position: the Fourth
Circuit found that a similar contract structure could
be understood as violating the Stark Act.
But the rub is this. The Fourth Circuit’s opinion
reflects, I believe, a different factual understanding:
that “collections for the physicians’ personally
performed services” included all collections by the
hospital relating to the service, not just to the
physician’s role in the service. Thus the Court states
at one point that “there are referrals here, consisting
of the facility component of the physicians’ personally
performed services, and the resulting facility fee
billed by Tuomey [Healthcare] based upon that
component.” Id. at 379 (emphasis added) (internal
citations and quotation marks omitted). Elsewhere
the Court took pains to distinguish regulatory

85a
language approving “productivity bonus[es] based on
the fair market value of the work personally
performed by a physician” because it “says nothing
about the propriety of varying a physician’s base
salary based on the volume or value of referrals.” Id.
at 380 n.10. Again, the only theory the majority
offers for why compensation here or in Tuomey
varies with referrals is that compensation based on
the work personally performed by a physician
inherently varies with referrals, because each
procedure a doctor performs will generate some
referrals. But the Fourth Circuit was clear in its
view that there was more than that present in
Tuomey—compensation based not only on the
collections from the surgeon’s own labor but also the
facility fees collected by the hospital. Even if that
misread the facts of the case, it means that the
Fourth Circuit did not actually adopt the majority’s
preferred rule of law.
Of course, Tuomey is a Fourth Circuit case and
therefore not binding precedent. And although I
believe my interpretation of the regulations is more
apt solely as a linguistic matter, I also have a
concern about the consequences of our decision on
myriad innocent contractual arrangements. At its
conclusion the majority opinion offers this
summation of the case against UPMC:
A chain of financial relationships linked the
surgeons to the hospitals. The surgeons
referred many designated health services to
the hospitals, generating ancillary hospital
services and facility fees. Their pay necessarily
varied with the volume of those referrals. The
hospitals made Medicare claims for those

86a
referrals. And the defendants allegedly knew
all this.
Maj. Op. at 417 (emphasis added). For the most part
this simply describes an arrangement where doctors
are employed by hospitals to perform services at
those hospitals, which is hardly suspicious. The only
ingredient that transforms this innocuous set-up into
a potential Stark Act violation is that the surgeons’
pay “necessarily” varied with the volume of referrals.
But the majority makes clear that any compensation
based on a physician’s own labor, in its view,
“necessarily” varies with referrals.
Today’s decision suggests, therefore, that any
hospital that pays its affiliated physicians according
to some metric of the work they personally perform
at the hospital falls under suspicion of violating the
Stark Act, and it can only restore its good name by
pleading one of the statutory exceptions—
presumably at the summary judgment stage at the
earliest, i.e., after discovery has already taken place.
If this is so, I cannot see why most of the top
hospitals in the country, many of whom likely
employ similar compensation schemes to UPMC’s,
would not be vulnerable to a Stark Act lawsuit that
could survive a motion to dismiss and proceed to
discovery. Nor is it easy to say what those hospitals
should do to avoid the prospect of litigation. If
compensation that merely correlates with referrals,
including correlation based solely on a physician’s
own work, is enough to place a hospital under
suspicion of violating the Stark Act, then the only
way to evade suspicion altogether, short of
abandoning the widespread practice of hospitals
employing their own doctors (whether directly or, as

87a
here, through a subsidiary), would be to pay those
doctors a flat annual salary—and a modest one at
that.4
I do not believe that the Stark Act was written
essentially to ban compensation based on wRVUs or
other measures of a physician’s own productivity, or
that its implementing regulations have this effect. To
the contrary, the statute and regulations repeatedly
express their approval of these compensation
schemes. See, e.g., 42 U.S.C. § 1395nn(e)(2) (indented
text) (“Subparagraph (B)(ii) shall not prohibit the
payment of remuneration in the form of a
4
The majority suggests that my concern about “opening the
floodgates of litigation” is “overstated” because the Government
can dismiss frivolous qui tam actions over the relators’
objections. Thus “[f]ederal courts are not the first line of defense
against abusive suits; the Justice Department is.” Maj. Op. at
417; see also 31 U.S.C. § 3730(c)(2)(A). That may be so, but it
does not excuse us from playing our role and ensuring at the
motion-to-dismiss stage that complaints are legally sufficient.
“Where a complaint pleads facts that are merely consistent with
a defendant’s liability, it stops short of the line between
possibility and plausibility of entitlement to relief.” Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868
(2009) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
557, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007)) (internal citations
and quotation marks omitted). In other words, a complaint
must plead facts that are not only consistent with the
defendant’s liability but in some measure suggest it, as opposed
to any innocent explanation. See id. at 680, 129 S.Ct. 1937
(explaining that, in Twombly, the allegations were “consistent
with an unlawful agreement” but “not only compatible with, but
indeed ... more likely explained by, lawful ... behavior.”) Here,
however, the majority would allow the relators’ suit to proceed
based on nothing more than allegations of entirely innocuous
conduct: a hospital paying its affiliated physicians based on the
labor they personally perform at the hospital.

88a
productivity bonus based on services performed
personally
by
the
physician.”);
42
C.F.R.
§ 411.352(i)(3)(i) (expressly listing wRVU as an
acceptable basis for a productivity bonus for group
practice doctors); Medicare and Medicaid Programs;
Physicians’ Referrals to Health Care Entities With
Which They Have Financial Relationships (Phase II),
69 Fed. Reg. 16054, 16067 (Mar. 26, 2004) (“[A]ll
physicians,
whether
employees,
independent
contractors, or academic medical center physicians,
can be paid productivity bonuses based on work they
personally perform.”).
Thus, although I concur with the judgment of the
majority that the relators here have done enough to
survive a motion to dismiss, I cannot agree that
correlation alone is enough to show that
compensation “varies with, or takes into account, the
volume or value of referrals” as required by
§ 411.354(c)(2)(ii). Instead I would hold that this
language requires some showing of an actual causal
relationship to establish an indirect compensation
arrangement under the Stark Act.

89a
APPENDIX D
_________
UNITED STATES DISTRICT COURT,
W.D. PENNSYLVANIA
_________
UNITED STATES OF AMERICA, EX REL. J. WILLIAM
BOOKWALTER, III, ET AL.,
Plaintiffs,
v.
UPMC, ET AL.,
Defendants.
_________
Civil Action No. 12-145
_________
Signed 03/27/2018
_________
ORDER
Cathy Bissoon, United States District Judge
Defendants’ Motion to Dismiss (Doc. 99)1 will be
granted. In support of this ruling, the Court
1

At the onset, the Court dispenses with the notion that
Defendants should be faulted, or owe an apology, for not
adhering to the undersigned’s “meet and confer” requirement
as-relates to motions under Rule 12(b)(6). See generally
Practices
&
Procedures
(http://www.pawd.uscourts.gov/sites/pawd/files/JudgeBissoonChamber-Rules-Revised-20170214.pdf) at § II.A (requiring
parties, in advance of motions-practice, to discuss whether
pleading defects may be cured by amendment). The
requirement does not “fit” the current procedural posture (i.e.,

90a
incorporates by reference its analyses in the Order
dated June 21, 2017 (Doc. 95), as well as the
analyses in Defendants’ current Motion-papers
(Docs. 100 & 108).
In the June 21st Order, the Court expressed “strong
doubts” regarding Plaintiffs’ ability to overcome-byamendment the numerous pleading deficiencies
identified therein. See Doc. 95 at 2. Defense counsel
is correct that Plaintiffs did not comply with the
Court’s instructions regarding amendment, see Doc.
100 at 1; but, in fairness, it now seems clear that
they were directed to do that which could not be
done. Indeed, had Plaintiffs’ request to amend not
been so vociferously stated, the Court might well
have thought to allow, in the alternative, a second
path: that Plaintiffs be permitted to stand on their
pleadings and immediately proceed to appellate
review. See generally S.B. v. KinderCare Learning
Ctrs., 815 F.3d 150, 152 n.1 (3d Cir. 2016)
(contemplating same).
In the end, the outcome remains unchanged.
Plaintiffs by-now have abandoned all of their claims
save those under the Stark Law. Defendants have
made compelling arguments that Plaintiffs’ current
allegations do not plausibly identify a Starkimplicating compensation agreement, see Doc. 100 at
7-9, and the Court adopts their arguments and
conclusions. Even were the Court to assume the
Plaintiffs being afforded one last chance to amend their
pleadings, following the Court’s grant of a prior Motion to
Dismiss based on detailed legal analyses; after which it was
almost a foregone conclusion that Defendants again would test
the legal-sufficiency of the amended claims).

91a
contrary, Plaintiffs’ underlying premise—that
targeted-physicians
conducted
medically
unnecessary, or unnecessarily complex, procedures
—persists. See, e.g., 2d Am. Compl. (Doc. 98) at
¶¶ 67, 82, 188-212. Plaintiffs’ newly-amended
pleadings offer no greater specificity, and they still
fail to sufficiently allege “particular details of a
scheme to submit false claims[,] paired with reliable
indicia ... lead[ing] to a strong inference” that false
claims actually were submitted. See Doc. 95 at 3
(citing and quoting binding Third Circuit authority).
In the face of this seemingly inevitable conclusion,
Plaintiffs attempt to side-step it by suggesting that
the wRVU-based compensation system, either
generally or as applied by Defendants, constituted a
per se violation of the Stark Law. The Court joins
Defendants in rejecting this contention. There is no
support for it, in the law or otherwise, and were such
allegations enough, one can only imagine the
proliferation of qui-tam lawsuits that would result.
See Doc. 108 at 2-3 & n.2.2
Perhaps the clearest “shorthand” explanation for
why Plaintiffs’ claims remain deficient is one
emphasized in the Court’s prior Order: Plaintiffs
2

Tellingly, the case decisions cited by Plaintiffs’ counsel are
facially distinguishable. See, e.g., Doc. 103 at 16 (citing cases in
which healthcare systems allegedly offered salaries or bonuses
well in excess of fair-market-value, essentially taking a loss on
those specific services in exchange for windfalls resulting from
increased referrals and “downstream income”). Defendants’
wRVU-based compensation model is, on its face, productivityrelated; and the “special sauce” needed to make Plaintiffs’
claims plausible—sufficiently-specific allegations regarding a
lack of medical necessity—remains conspicuously absent.

92a
have not, and cannot, distinguish the presumablylawful compensation/referral arrangements between
the Relator-physician(s) and Defendant(s), and those
of the purportedly malfeasant physicians. The only
plausible distinction is Plaintiffs’ contention—
whether by express averment or through unspoken
implication—that certain “bad actors” performed
unnecessary or unnecessarily-complex medical
procedures and the Relator(s) did not.3
For all of the reasons above, including those
incorporated by reference herein and in the June 21st
Order, Defendants’ Motion to Dismiss (Doc. 99) is
GRANTED, and this action is DISMISSED WITH
PREJUDICE.
IT IS SO ORDERED.

3

In contravention of the Court’s June 21st Order, a swath of
the Second Amended Complaint brazenly reasserts the same
allegations regarding lack-of-medical-necessity. See Doc. 98 at
¶¶188-212 (subsection titled, “[Physicians p]erforming more
complex procedures than necessary [to] artificially inflate
wRVUs”). Other instances have been omitted. See Doc. 100-1
(redlined-comparison of First and Second Amended Complaints,
supplied by Defendants’ counsel). The Court’s June 21st Order is
the law of the case, and Plaintiffs cannot evade it merely by
extracting some or all references to “medical necessity.”

93a
APPENDIX E
_________
UNITED STATES DISTRICT COURT,
W.D. PENNSYLVANIA
_________
UNITED STATES OF AMERICA, EX REL. J. WILLIAM
BOOKWALTER, III, ET AL.,
Plaintiffs,
v.
UPMC, ET AL.,
Defendants.
_________
Civil Action No. 12-145
_________
Signed 06/21/2017
_________
ORDER
Cathy Bissoon, United States District Judge
For the reasons that follow, Defendants’ Motion to
Dismiss (Doc. 88) will be granted, and Plaintiffs will
be afforded an opportunity to amend the complaint.
Counsel are familiar with the factual averments
and legal issues presented, and the Court writes for
their benefit only. Plaintiffs have initiated this qui
tam action against Defendants under the False
Claims Act (“FCA”), and the only remaining theories
are that Defendants violated the Anti-Kickback
Statute (“AKS”) and the Stark Law. See generally
Pls.’ Opp’n (Doc. 91) at 1. Other allegations have

94a
been released pursuant to settlement, see id. at 1,
and Plaintiffs have disavowed the notion that
“specific claims for payment are false because the
underlying services were not medically necessary.”
Id. at 26.
In sum, Plaintiffs challenge Defendants’ physiciancompensation system, which is based on the doctors’
“wRVU” production. “The more complex [a medical]
procedure, the greater [the] number of wRVUs ...
assigned.” Am. Compl. (Doc. 31) at ¶ 79. Pursuant to
the physicians’ employment contracts, each doctor is
required to generate a minimum number of wRVUs
per calendar year in order to earn base
compensation. Id. at ¶ 104. Once the minimum is
achieved, the doctor receives “bonus pay,” at a rate of
$45 per wRVU generated, even though the federal
healthcare program(s) compensate UPMC at “a lower
rate of approximately $35 per wRVU.” Id. at ¶ 105.
Plaintiffs contend that this violates the AKS and
Stark Law, which prohibit certain self-interested
referral and ownership arrangements, because the
wRVU compensation system encourages physicians
to “perform[ ] medically unnecessary and/or
[unnecessarily] complex surgeries,” thereby driving
up their wRVUs, and, consequently, their personal
remuneration. See Pls.’ Opp’n (Doc. 91) at 7.
Defendants’ Motion challenges Plaintiffs’ Amended
Complaint on a number of different grounds, most of
which center on the “plausibility” standard under
Iqbal/Twombly, and the requirement that FCA
allegations be plead with specificity under Federal
Rule 9(b). See generally Defs.’ Br. (Doc. 89) at 12-25.
The Court agrees with Defendants that Plaintiffs’
allegations, as currently plead, fail under the

95a
plausibility and Rule 9(b) standards; their Motion
will be granted; and their analyses are incorporated
by reference herein.
Plaintiffs urge, however, that if Defendants’ Motion
is granted, they be afforded an opportunity to amend
their pleadings in an attempt to state legally-viable
claims. Pls.’ Opp’n (Doc. 91) at 26-27. While the
Court has strong doubts regarding their ability to do
so, it will grant them one last, best chance to plead
legally cognizable claims. In addition to Defendants’
arguments, Plaintiffs also must be prepared to
address the following.
Analyzing
Plaintiffs’
current
pleadings
is
particularly difficult for two reasons: (1) the
Amended Complaint contains averments regarding
claims that since have been settled; and (2),
Plaintiffs expressly have disavowed the notion that
false claims were submitted because they were not
“medically necessary.” See discussions supra. As to
the settled claims, they correspond to the only
allegations in the Amended Complaint that approach
the level of specificity contemplated under Rule 9(b).
See Foglia v. Renal Ventures Mgmt., LLC, 754 F.3d
153, 156 (3d Cir. 2014) (Rule 9(b) requires a plaintiff
to allege “particular details of a scheme to submit
false claims[,] paired with reliable indicia that lead
to a strong inference that claims were actually
submitted”) (citation to quoted source omitted);
compare Stipulated Order of Dismissal (Doc. 78)
(addressing dismissal of claims related to billing of
assisting-physician services, services related to
“residents, fellows and physician assistants,” and
“multi-level laminectomies” performed “on fewer
levels than reflected” in claims for payment) with

96a
Am. Compl. at ¶¶ 161-175, 176-203, 204-210
(providing greater specificity regarding these
theories than as relates to Plaintiffs’ physiciancompensation theory).
Turning to “medical necessity,” it is difficult to
reconcile Plaintiffs’ disavowal of such claims with
their insistence that Defendants’ compensation
system encourages and/or induces unlawful referrals
under the AKS and Stark Law. This is so because, in
order to establish that additional (or more complex)
surgeries were caused to be undertaken, by
seemingly-inevitable implication, they must show
that a given procedure would fail the “medical
necessity” standard. See Pls.’ Opp’n Br. (Doc. 91) at 7
(physicians inflated their wRVUs by “performing
medically unnecessary and/or more complex
surgeries when simpler and safer procedures were
the standard of care”); see also Am. Compl. (Doc. 31)
at ¶¶ 53, 67, 73 & 75 (emphasizing “medical
necessity” standard, as applied under each federal
healthcare program, including Medicare, Medicaid,
TRICARE/CHAMPUS and FEHBP).
These conclusions notwithstanding, Plaintiffs
posits that, while they expressly disavow “medical
necessity” averments, “[t]his does not mean that
evidence of the performance of medically
unnecessary procedures is irrelevant” to their
remaining claims, and they “fully intend to pursue
such evidence in discovery.” See Pls.’ Opp’n (Doc. 91)
at 26 n.11. The Court does not believe, however, that
Plaintiffs can “have it both ways.” Plaintiffs cannot
properly be permitted to engage in a fishingexpedition to seek out claims whose medical
necessity may be questioned, while at the same time

97a
eschewing “medical necessity” averments to avoid
the rigorous standards under Rule 9(b).
Furthermore, Plaintiffs must be prepared to offer
more specific and plausible allegations in support of
their AKS and Stark Law claims should they wish to
avoid Defendants’ arguments regarding the
application of seemingly obvious exceptions built into
the statutory framework. See generally Defs.’ Br.
(Doc. 89) at 12-25. While Plaintiffs retort that
Defendants carry the burden of proving the
exceptions are satisfied, and/or that such matters
cannot properly be resolved at the 12(b)(b) stage, the
lack of plausible and sufficiently-specific allegations
of liability make their objections ring hollow. In the
Amended Complaint, Plaintiffs recount page-afterpage of boilerplate standards regarding the statutory
and regulatory schemes, yet they offer only bald
conclusions that “the [contracting] parties did not
satisfy any exception[s].” Compare, e.g., Am. Compl.
(Doc. 31) at ¶¶ 81-95 (recounting standards under
Stark Law, including detailed recitation of
exceptions for “bona fide employment relationships,”
“personal service arrangements,” “fair market value
arrangements”
and
“indirect
compensation
relationships”) with id. at ¶ 152 (flatly stating that
the exceptions do not apply).1 In addition, Plaintiffs’
1

The cases relied upon most heavily by Plaintiffs’ counsel
address scenarios involving exclusivity-agreements entered
between providers and hospitals, i.e., the providers could only
refer patients to the medical facility in question, but they were
assured to be the provider for any such services undertaken.
See, e.g., Kosenske v. Carlisle HMA, Inc., 554 F.3d 88, 91 (3d
Cir. 2009) and U.S. v. Millennium Radiology, Inc., 2014 WL
4908275, *1 (S.D. Ohio Sept. 30, 2014). While by no means is

98a
averments fail to offer a meaningful distinction
between purportedly-unlawful claims, submitted
pursuant
to
the
“standard”
compensation
agreements of physicians targeted in the Amended
Complaint, and the presumably-lawful claims
submitted pursuant to the Realtor-physician(s)’ own
compensation agreements. See Defs.’ Br. (Doc. 89) at
17.
Finally, even assuming Plaintiffs eventually do
assert sufficiently specific and plausible averments
in support of their AKS and Stark Law claims, the
Court has no reason to believe that Defendants’
arguments regarding the statutory exceptions could
not properly be converted to summary judgment. The
contractual dealings and provisions in question
this a requirement for stating viable claim(s) under the AKS
and/or Stark Law, the aforementioned decisions appear readily
distinguishable from the legal theory in this case. Here, there is
no suggestion that Defendants’ physicians funneled referrals to
a particular facility; rather, the physicians operated under
standard physician contracts, and Plaintiffs contend that, in
order to receive bonus compensation under those agreements,
Defendants encouraged medically-unnecessary procedures to
increase their wRVU ratings. Other than reciting the
overarching legal standards, Plaintiffs’ cases do not offer much
in the way of meaningful comparison. Indeed, the only
precedent broaching the instant scenario runs decidedly in
Defendants’ favor. See Bingham v. BayCare Health Sys., 2016
WL 8739056, *5 (M.D. Fla. Dec. 16, 2016) (granting summary
judgment in favor of defendants on Stark Law claim because,
among other things, compensation for the physicians was
“comprised of a base salary and the physician[s’] productivity
using ... wRVUs,” “neither of which [we]re based on referrals”)
(emphasis added); cf. also generally discussion infra
(contemplating potential conversion of Defendants’ arguments
to summary judgment).

99a
would, presumably, speak for themselves, and the
Court has difficulty imagining why, and what,
discovery would be necessary for Plaintiffs properly
to resist. Should such a conversion be requested, and
should Plaintiffs persuade the Court that any
modicum of discovery is appropriate (and cannot be
avoided by way of a voluntary informational
exchange), the parties may rest assured that any
discovery granted would be narrowly limited, and
expedited, so that the Court promptly may resolve
the threshold issues.2
Consistent with the above, Defendants’ Motion to
Dismiss (Doc. 88) is GRANTED, and Plaintiffs’
deadline for filing a curative amendment is July 10,
2017. No further opportunity for amendment will be
afforded, and Plaintiffs must be prepared to make
last, best efforts to state viable claims. See generally
Renze v. Longo, 2017 WL 782893, *4 (WD. Pa. Mar.
1, 2017) (“[it] would be inequitable to require [a
d]efendant, who already once has exhaustively and
successfully defended [the plaintiff’s] grievances, to
respond to a continuous stream of ... attempted
amendments”) (citation to quoted source omitted). In

2

Plaintiffs’ current objection to Defendants’ reliance on
materials outside the pleadings likewise could be resolved
through conversion to summary judgment. See Pl.’s Opp’n Br.
(Doc. 91) at 1 n.1. To the extent that any such materials might
shed light on the legal issues presented, and in the absence of
specific objections that only may be remedied through
discovery, the Court believes that informational-barriers should
not be constructed to avoid a reasoned decision. As should be
evident, moreover, the Court will have a watchful eye toward
ensuring that discovery, if any, will not degenerate into a
fishing-expedition.

100a
amending, Plaintiffs shall account not only for the
discussions herein, but also for Defendants’
remaining arguments for dismissal. In addition,
Plaintiffs’ amended pleadings shall omit allegations
in support of claims that have settled, as well as
those made in support of “medical necessity,” as
disclaimed by their counsel. Finally, and although it
probably goes without saying, the Court’s grant of
leave to amend does not extend an invitation for
Plaintiffs to espouse new theories of putativeliability. See In re Chemed Corp., 2017 WL 1712530,
*13 (D. Del. Apr. 25, 2017) (when a court grants
leave for curative amendment, it properly may
dismiss proposed amendments that exceed the
bounds of what was considered) (collecting cases).
Once Plaintiffs have filed a second amended
complaint, Defendants shall plead or otherwise
respond by July 28, 2017.
IT IS SO ORDERED.3

3

In raising the prospect of a conversion to summary
judgment, the Court does not mean to suggest that Defendants
cannot properly establish their entitlement to dismissal under
Rule 12(b). The point is that, should additional information
prove useful, or should conversion be appropriate to reach
obviously-implicated statutory exceptions, the Court will not
countenance broad and unlimited discovery regarding matters
unrelated.

101a
APPENDIX F
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
_________
UNITED STATES OF AMERICA, EX REL. J. WILLIAM
BOOKWALTER, III, M.D., ROBERT J. SCLABASSI, M.D.,
AND ANNA MITINA,
Plaintiffs,
v.
UPMC; UPP, INC. D/B/A UPP DEPARTMENT OF
NEUROSURGERY,
Defendants.
_________
Case No. 2:12-cv-00145
_________
REPLY IN SUPPORT OF DEFENDANTS’
MOTION TO DISMISS RELATORS’ SECOND
AMENDED COMPLAINT
_________
Stripped of straw man diversions and ad hominem
attacks, Relators’ Opposition to Defendants’ Motion
to Dismiss the Second Amended Complaint (“SAC”)
confirms that the SAC does not and cannot state
legally cognizable claims, as the Court essentially
predicted in its decision on Defendants’ first motion
to dismiss. Relators offer no defense for their
decision to retain irrelevant, disavowed or settled
allegations in the face of the Court’s direction to
remove them. See Dkt. 95 (“MTD Order”) at 2, 6;

102a
Dkt. 100 (“MTD SAC”) at 1-2, 15-17, 18-21. And they
identify no new factual allegation to distinguish their
sole remaining legal theory from the theory rejected
in a District Court Opinion specifically identified by
this Court as authoritative. See MTD Order at 4-5,
n.1. Instead, without even acknowledging that their
Opposition is, in effect, a request for reconsideration,
Relators argue at length that this Court should
reverse course, disregard the “only precedent
broaching this scenario” (id.) and allow them to
champion an unprecedented theory of liability—that
wRVU-based compensation is “by its very nature” so
problematic under the Stark Law that merely
mentioning it states a claim for violation of the False
Claims Act (“FCA”). See Opp’n at 8 (emphasis in
original). Relator’s implied objections to the Court’s
prior order should be overruled, and the SAC should
be dismissed with prejudice to Relators. Cf. Coulter
v. Studeny, No. CIV.A. 12-60, 2012 WL 5458923, at
*1 (W.D. Pa. Nov. 8, 2012), aff’d, 522 F. App’x 147
(3d Cir. 2013) (denying motion for reconsideration
where plaintiff “simply disagrees with this Court’s
prior ruling and seeks another bite at the litigation
apple.”). 1 The deficiencies in Relators’ Opposition
include the following:
1

Counsel for Defendants apologize to the Court for not
formally conferring with Relators’ counsel prior to filing the
present motion, pursuant to the current version of this Court’s
Rule II(A). See Dkt. 103 (“Opp’n”) at 1, n.1. Defendants
respectfully submit that the oversight was inadvertent and will
not be repeated. Moreover, in the context of this case, formal
adherence to this rule would have been futile. The Court’s June
21 Order made clear that once Relators filed their SAC, “[n]o
further opportunity for amendment will be afforded.” MTD
Order at 6. And when the parties negotiated agreed motions on

103a
1. The SAC should be dismissed because
Relators admit it fails to meet the Court’s instruction
that they allege facts distinguishing “standard”
wRVU-based physician employment contracts from
those of the targeted physicians. MTD Order at 5, 6.
In granting Defendants’ first motion to dismiss, the
Court marked the limits of a viable Stark Law theory
by reference to the only available precedent, a
decision in Bingham v. BayCare Health System, No.
8:14-CV-73-T-23JSS, 2016 WL 8739056 (M.D. Fla.
Dec. 16, 2016). The Court observed that summary
judgment had been granted there “in favor of
defendants on [a] Stark Law claim because among
other things, compensation for the physicians was
‘comprised of a base salary and the physician[s’]
productivity using . . . wRVUs,’” “‘neither of which
[we]re based on referrals.’” MTD Order at 4-5 n.1
(emphasis in original). Rather than cite a contrary
decision or plead distinguishing facts, Relators
simply plow forward, hanging their entire Complaint
on the unprecedented theory that all standard
employment agreements under which hospitalaffiliated practice groups routinely compensate
physicians for wRVU-based productivity trigger the
Stark Law because “by its very nature a wRVU-based
compensation
system
results
in
aggregate
compensation that varies with referrals.” Opp’n at 6the schedule for filing the SAC, the Motion to Dismiss, and
Relators’ Opposition, Relators’ counsel never raised the
prospect of seeking leave to amend again in order the cure a
pleading defect. Nor have they done so since. Moreover, the
issues joined on Defendants’ Motion and Relators’ Opposition
show that the parties hold opposing views on whether Relators’
wRVU-based theory of Stark liability states cognizable FCA
claims.

104a
7, 9 (emphasis in original). In other words, Relators
posit that (a) every such contract violates the Stark
Law on its face, (b) any relator who places such a
contract at issue in a qui tam action has adequately
alleged a Stark-implicating financial relationship,
and (c) any such relator is entitled to conduct
discovery, at the end of which the defendant will be
given an opportunity to demonstrate that it “strictly
complie[d] with the terms of a specific statutory or
regulatory exception.” Id. at 3. If such an extreme
interpretation of the statute had been the law of the
land, one would expect relators across the country to
have filed a plethora of similar lawsuits over the 20
years in which Stark-based qui tams have been
litigated. 2 And yet, Relators have not identified even
one.
2. Like this Court and the court in Bingham,
CMS has long held that physicians “can be paid in a
manner that correlates to their own personal labor,
including labor in the provision of [hospital
services],” without running afoul of Stark provisions
triggered by indirect compensation that varies with
the value or volume of referrals. MTD SAC at 8
(quoting 66 Fed. Reg. 876). Reconciling this critical
guidance with their strained interpretation of CMS
regulations would seem essential to advancing
Relators’ theory, especially in a fraud case; yet
Relators’
diversionary
discussion
of
Stark

2

Relators do not dispute the prevalence of wRVU-based
compensation nor that the very agency allegedly victimized by
this form of compensation is the agency that developed it as a
means to measure the relative value of services physicians
provide. See MTD SAC at 10.

105a
regulations and CMS commentary fails even to
address it. See Opp’n at 7-11. As Relators note, CMS
has written that the technical component of a
physician service rendered in a hospital can be a
“referred” hospital service under certain provisions of
the Stark Law (66 Fed. Reg. 856, 941), and that for
some practitioners, “per click,” unit-based and timebased compensation will vary in the aggregate with
the value and volume of that “referred” technical
component. See Opp’n at 7, 8-9, 18; 42 CFR
411.354(d)(2)-(3). But contrary to the import of
Relator’s theory, the CMS’ guidance on which they
rely
(concerning
per-click
or
unit-based
compensation) does not cancel out the agency’s
contemporaneous guidance on compensation for
personally performed hospital services. Obviously, to
CMS, compensation that correlates to a physician’s
labor in the provision of hospital services is not “by
its very nature” compensation that varies with the
value and volume of technical component referrals.
The flaw in Relators’ theory is their incorrect
assertion that wRVUs act as an accounting of the
number of procedures performed. Id. at 7 (“since the
more procedures a physician performs (each of which
results in a referral to the hospital for the facility
component of the services), the more he is paid.”).
CMS allocates wRVUs to particular procedures, and
CMS does so based not on the value or volume of the
resulting technical component, or on the time a
surgeon spends in the OR, or on the number of
“clicks,” patients treated or procedures performed,
but on a variety of measures accounting for the value
and volume of physician resources expended to
perform the procedure. See MTD SAC at 10. As such,

106a
wRVU-based compensation does not “by its very
nature” vary with the value or volume of referrals.
3. Retreating to their preferred terrain, Relators
argue that the propriety of compensation based on
personal productivity is not ripe on a motion to
dismiss because it relates to exceptions to the Stark
Law. Opp’n at 9. But here too, Relators fail to
reconcile that assertion with contrary authority. Be
it in an indirect compensation arrangement context
or otherwise, a relator’s failure to allege facts
rendering personal productivity bonuses unlawful
has been found dispositive at this stage. E.g., U.S. ex
rel. Obert-Hong v. Advocate Health Care, 211 F.
Supp. 2d 1045, 1050-51 (N.D. Ill. 2002) (“[p]ayments
based on personally performed services are
permissible,” and dismissing allegations that
productivity bonus under physicians’ standard
employment agreements with physician practice
affiliate of health system violated Stark Law); see
also U.S. ex rel. Grandeau v. Cancer Treatment
Centers of Am., No. 99 C 8287, 2005 WL 2035567
(N.D. Ill. Aug. 19, 2005) (dismissing Stark
allegations related to productivity bonus).
4. Relators’ lengthy discussion of Stark Law
exceptions (Opp’n at 11-21) is simply a series of
straw men, which essentially boil down to a refrain
repeated throughout their Opposition: their claim
that the SAC adequately alleges “Defendants cannot
satisfy a statutory exception” because the 13 named
physicians’ compensation exceeded fair market
value. See id. at 13, 15, 20. But, “there is no fair
market value analysis at this first stage of
determining whether an indirect compensation
arrangement exists.” U.S. ex rel. Singh v. Bradford

107a
Reg’l Med. Ctr., 752 F. Supp. 2d 602, 626-627 (W.D.
Pa. 2010); cf. MTD SAC at 9. In Relators’ own words,
“whether payments to the physicians were fair
market value” or satisfied other requirements of a
Stark Law exception are “irrelevant” to whether
Relators have met their threshold burden to allege a
Stark
Law-implicating
indirect
compensation
arrangement (Opp’n at 11-12, 14) 3 —which as
discussed above, they have not.
5. Even if fair market value were a relevant
consideration at this stage, the SAC simply does not
plead facts making it plausible (let alone with the
particularity required by Rule 9(b)) that each of the
13 physicians whose referrals the SAC purports to
put at issue received compensation in excess of fair
market value over the course of 10 years. Relators’
response shows that the SAC does not cure the
problems identified in the Court’s prior Order. Opp’n
at 11, n.5, 15-17. Both of the cases on which Relators
rely to argue that a relator can “adequately plead
above-fair-market value compensation when they
compare physician compensation to benchmark
salary data . . .” are factually inapposite. Id. at 1516. 4 Even if such benchmark comparisons were
3

Relators’ counsel, who also represented relators in Bradford,
apparently recognized as much in that case. 752 F. Supp. 2d at
626-627 (“Relators’ position is . . . that we should first determine
whether an indirect compensation arrangement exists, which
only requires an assessment of whether the compensation ‘takes
into account’ referrals, not an analysis of ‘fair market value’”)
4

Relators’ selective quotes from U.S. ex rel. Perales v.
Margaret’s Hosp., 243 F. Supp. 2d 843 (C.D. Ill. 2003)
materially inaccurate. Opp’n at 11 n. 5, 17-18. The portions
out show that the court granted summary judgment to

St.
are
left
the

108a
pertinent, the SAC’s portrayal of “benchmarked
salary data” is rendered implausible by its own
analytical flaws, which Defendants showed in their
opening brief. MTD SAC at 14. 5 Moreover, the
“physician compensation” the SAC purports to
“compare”
to
those
benchmarks
references
compensation information for only 4 of 13 surgeons,
and the data quoted for these 4 supports nothing
more than an inference that each was highly
productive and paid accordingly. Compare Opp’n at
15 (salary chart), with id. at 20 (wRVU chart). 6
Thus, Relators’ claim that Defendants engaged in a
multi-year “scheme” with 13 surgeons does not hold
defendant on relators’ FCA claims premised on the Stark Law
and Anti-Kickback violations, and noted:”[a]lthough the Court
could infer that any excess amounts paid over fair value was
intended to induce referrals,” it declined to do so in that case.
243 F. Supp. 2d at 851 (emphasis added).
5

Separately, the SAC reiterates allegations about a supposed
gap between Medicare reimbursement and the physicians’
annual base wRVU rate set by contract, to support the illogical
assertion that standard employment contracts evidence
Defendants’ agreement to take an “immediate financial loss on
Medicare procedures performed by these neurosurgeons” such
that their compensation “does not constitute fair market value.”
SAC ¶¶ 100-102. As Defendants explained, Relators’ own
survey data make that inference implausible. See MTD SAC at
11-13. Relators offer no substantive response. See Opp’n at 16.
6

Notably, none of the four physicians whose compensation
serves as the basis for Relators’ so-called “comparisons” are
identified as part of the “first-assistant” allegations (SAC
¶¶ 135-136); only 2 of the four (Dr. Spiro and Dr. Kassam) are
identified as part of the “teaching physician” allegations (id.
¶¶ 149, 170); and only one of the four (Dr. Bejjani) is identified
as part of the “billing for services not rendered” allegations (id.
at ¶¶ 180-184).

109a
up to scrutiny under the Iqbal/Twombly plausibility
standard. Nor do the allegations provide the “who,
what, when, where, and how” required by Rule 9(b).
MTD SAC at 14, 17-21 & n.8
6. Relators continue to rely on allegations
concerning a series of settled “schemes” by which
they claim certain subgroups of the 13 named
physicians artificially inflated wRVUs. Opp’n. at 1820. Curiously, despite having retained these
allegations in the face of the Court’s instruction that
they be removed from the SAC (see MTD Order at 6),
Relators now disavow them, stating “the complaint
could dispense with these ‘schemes’ altogether . . .”
Opp’n at 19-20 n. 7. And yet, the SAC remains
cluttered with “scheme” allegations that Relators fail
to connect to any Stark Law violation, i.e., referrals
for hospital services from a physician whose
compensation varied with the value and volume of
referrals (or exceeded fair market value) because the
referring physician engaged in the alleged billing
scheme. See MTD SAC at 5-6, 9-11, 15-17, 19-20; see
also Dkt. 89 (MTD AC) at 5 n.4. As the Court
recognized when it dismissed Relators’ medically
unnecessary procedure allegations on the last go
round, to pursue their billing scheme, Relators must
clearly define a universe of procedures where the
alleged “scheme” gave rise to a Stark Law violation,
and the SAC’s general averments are insufficient to
meet that requirement. MTD Order at 3. Relators’
continued inability to satisfy the Court’s demand in
the form of the short plain statement required by
Rule 8 confirms the implausibility of their claims
that these schemes enabled Defendants to violate the
Stark Law or the FCA.

110a
7. Relators’ response with respect to scienter is
yet another admission that the SAC fails to plausibly
allege this essential element of their FCA claims.
Opp’n at 21-22; cf. id. at 10, n.6. Relators argue that
all they need to allege is that the Defendants knew
(as that term is defined under the FCA) that the
Stark Law prohibited billing where a financial
relationship with the referring physician violated the
Stark Law. Id. at 21-22. But the relevant inquiry is
not whether a defendant had general knowledge of
what the law provided; general awareness of the law
cannot support an inference that a defendant shared
or recklessly disregarded a relator’s view of the law’s
application in a particular case. This inquiry is
particular pertinent when, in a case like this, the law
is ambiguous and the relator’s view of it is
unprecedented. Relators’ failure to plead facts
showing that Defendants knew or recklessly
disregarded that the standard employment
agreements with each of the 13 named physicians
violated the Stark Law, and submitted claims
nevertheless, requires dismissal under Iqbal. MTD
SAC at 21-22.
8. Relators’ arguments related to Counts II and
III are yet another thinly veiled request for
reconsideration. Opp’n at 24-25. Both claims
continue to fail in the first instance because Relators
have not plausibly alleged a Stark Law violation.
MTD SAC at 22. As to Count II, the SAC continues
to primarily rely on a recitation of the statute and
fails to identify which specific hospitals submitted
which specific cost reports, and thereby maintains an
approach that this Court previously found
insufficient. See MTD Order at 2. Moreover, the SAC

111a
(like the AC) fails to allege how any hospital
participated in or had any knowledge of or acted in
reckless disregard of the alleged compensation
scheme. MTD SAC at 6, 15-16, 22. As to Count III,
Relators’ reliance on the existence of cost reports
(Opp’n at 25) is similarly unavailing. Mere reference
to cost reports is not an allegation that UPMC took
any action to avoid a repayment obligation. Pleading
an act of avoidance is essential to state a reverse
FCA claim. See MTD SAC at 22. Moreover, contrary
to Relators’ suggestion, courts in this Circuit have
repeatedly held that reverse FCA “claims may not be
redundant of FCA claims asserted under other
provisions of section 3729.” U.S. ex rel. Sobek v.
Educ. Mgmt., LLC, No. CIV.A. 10-131, 2013 WL
2404082, at *29 (W.D. Pa. May 31, 2013) (emphasis
added); see also MTD AC at 28.
For all of these reasons and those set forth in
Defendants’ opening brief, the Court should dismiss
the SAC in its entirety with prejudice to Relators.
Respectfully submitted,
HOGAN LOVELLS US LLP
By: /s/ Stephen A. Loney, Jr.
Stephen A. Loney, Jr. (Pa. No.
202535)
stephen.loney@hoganlovells.com
1735 Market Street, 23rd Floor
Philadelphia, PA 19103
267-675-4600
267-675-4601 (Fax)

112a
Jonathan L. Diesenhaus, pro hac
vice
jonathan.diesenhaus@hoganlovells.
com
202-637-5416
Mitchell J. Lazris, pro hac vice
mitch.lazris@hoganlovells.com
202-637-5863
555 13th Street, NW
Washington, DC 20004
Counsel for Defendants

113a
APPENDIX G
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
_________
UNITED STATES OF AMERICA, EX REL. J. WILLIAM
BOOKWALTER, III, M.D., ROBERT J. SCLABASSI, M.D.,
AND ANNA MITINA,
Plaintiffs,
v.
UPMC; UPP, INC. D/B/A UPP DEPARTMENT OF
NEUROSURGERY,
Defendants.
_________
Case No. 2:12-cv-00145
_________
MEMORANDUM IN SUPPORT OF
DEFENDANTS’ MOTION TO DISMISS
_________
INTRODUCTION
On June 21, 2017, after granting Defendants’ first
Motion to Dismiss, the Court afforded Relators “one
last, best chance to plead legally cognizable claims”
for violation of the False Claims Act (“FCA”). Dkt. 95
(“MTD Order”), at 2. The Court issued clear
instructions, directing Relators: (1) to “omit
allegations . . . made in support of ‘medical
necessity,’” (2) “to omit allegations in support of
claims that have settled,” and (3) to respond to

114a
Defendants’ arguments in their Motion to Dismiss,
incorporated by reference into the Court’s Order. Id.
at 2, 6. Relators’ Second Amended Complaint (“SAC”)
is remarkable for what Relators did not do: follow
those instructions from this Court. See Dkt. 98. After
receiving fair warning that the SAC needed to reflect
their “last, best efforts,” MTD Order at 6, Relators
merely re-ordered allegations the Court already
found to be deficient and then inserted excerpts from
a settlement agreement in an obvious but misguided
attempt to excuse defiantly retaining allegations the
Court instructed them to delete.
Because Relators largely rehash the same
allegations from their Amended Complaint (“AC”)
that were insufficient, incomprehensible or both, the
Court’s observations about the AC remain applicable:
“[a]nalyzing Plaintiffs’ current pleadings is
particularly difficult.” MTD Order at 2. For example,
Relators have now apparently abandoned claims
premised on violations of the Anti-Kickback Statute,
limiting their remaining FCA claims to those
predicated solely on alleged Stark Law violations.1
They continue to disavow pursuing a theory that
claims were false because surgeries were not
medically necessary. Yet, inexplicably, the SAC
1

See, e.g., Introduction to SAC, at 1-2 (“By knowingly
submitting or causing the submission of claims for
reimbursement based on referrals that violated the Stark
Statute, Defendants violated the False Claims Act.”); id. at
¶¶ 230-242; see also Fernandez v. City of Jersey City, Civ. A. No.
06-CV-0503, 2007 WL 2908247, at *2 (D.N.J. Oct. 2, 2007) (“If
an amended complaint omits claims raised in the original
complaint, the plaintiff generally has waived those omitted
claims.”) (citing Young v. City of Mt. Rainer, 238 F.3d 567, 572
(4th Cir. 2001)).

115a
repeats largely verbatim the same medically
unnecessary procedure allegations the Court
instructed Relators to delete from the AC. See Ex. 1,
Redline SAC ¶¶ 188-212. 2 , 3 Similarly, Relators
continue to rely on allegations of physician billing
“schemes” in a prior settlement agreement (contrary
to the Court’s instructions), id. ¶¶ at 131-187,
contribute to the haystack in which Defendants (and
the Court) must search for a needle to thread a
coherent theory of liability under their remaining
Stark Law theory. The SAC is anything but the plain
clear statement required under Rule 8 and the
Court’s June 21, 2017 Order.
The Relators’ SAC confirms the prescience of the
Court’s “strong doubts” about their ability to plead
legally cognizable claims. MTD Order at 2. In the
June 21 Order, the Court noted in particular that
2

Or, perhaps explicably. The only apparent reason for
Relators to continue to include the salacious and unsupported
medically unnecessary procedure allegations in their complaint
is to stoke media attention, which those allegations did yet
again. See “Ex-UPMC employees return to court with
allegations of bonus pay,” Pittsburgh Post-Gazette (July 26,
2017) (“The doctor incentive program, according to the lawsuit,
violated federal law and resulted in a variety of illegal practices
that pumped up physician billings, including performing more
complex medical procedures than were necessary. . . .”),
available at: http://www.post-gazette.com/business/healthcarebusiness/2017/07/26/Ex-UPMC-employees-return-to-court-withallegations-on-bonus-pay/stories/201707210088.
3

For the Court’s reference, Defendants attach hereto as
Exhibit 1 is a “redline” comparison between true and correct
copies of the AC and the SAC. Any new text is in blue. Any text
from the AC that was moved to a different section in the SAC is
in green. Deleted text is in red.

116a
Plaintiffs had “fail[ed] to offer a meaningful
distinction between purportedly-unlawful claims,
submitted pursuant to the ‘standard’ compensation
agreements of physicians targeted in the Amended
Complaint, and the presumably-lawful claims
submitted pursuant to the Relator-physician(s)’ own
compensation agreements.” Id. at 5 (emphasis in
original). The SAC continues to allege that
physicians operated under standard physician
contracts, but does not (and cannot) allege an
essential element to trigger the Stark Law: that
Wrvu-based physician incentive compensation under
those contracts “varies with, or takes into account,
the volume or value of referrals or other business
generated” for a UPMC-affiliated hospital. 42 C.F.R.
§ 411.354I(2)(i)-(iii). Thus, the SAC fails to allege a
financial relationship that would trigger the referral
and claim prohibitions of the Stark Law in the first
place.
Instead, the SAC attempts to plead around this
deficiency by asking the Court to infer something
nefarious about 13 standard employment contracts
because theoretical physician misconduct could have
the effect of increasing compensation under those
standard contracts. E.g., Ex. 1, Redline SAC at
¶¶ 130-131. Yet again, Relators have failed to plead
facts indicating that a physician’s opportunity to
defraud an employer out of incentive compensation
renders the employer liable for violating the Stark
Law, let alone the FCA. The small handful of
arguably additional factual allegations Relators
included in the SAC do not bridge that gap. The SAC
does not make their claims any more plausible or
meet Rule 9(b)’s particularity standard for pleading a

117a
fraudulent scheme resulting in false claims; instead,
it simply reveals the dearth of a factual predicate for
Relators’ sole remaining theory of liability under the
Stark Law. For the reasons that follow and those
presented in support of Defendants’ first Motion to
Dismiss, 4 Relators’ complaint should be dismissed
with prejudice and without leave to amend.
LEGAL STANDARD
Relators must meet both the Rule 12(b) and
rigorous Rule 9(b) standards to state a claim for
relief premised on the FCA. MTD Order at 2
(“Plaintiffs’ allegations, as currently plead, fail under
the plausibility and Rule 9(b) standards.”); Universal
Health Servs., Inc. v. U.S. ex rel. Escobar, 136 S. Ct.
1989, 2004 n. 6 (2016) (“False Claims Act plaintiffs
must ... plead their claims with plausibility and
particularity under Federal Rules of Civil Procedure
8 and 9(b).”); see also U.S. ex rel. Petratos v.
Genentech Inc., 855 F.3d 481, 489 (3d Cir. 2017);
Defs.’ MTD AC at 10-12 (discussion of legal
standard). “The touchstone of the [Rule 12(b)]
standard is plausibility.” Bistrian v. Levi, 696 F.3d
352, 365 (3d Cir. 2012). The plausibility standard
“asks for more than a sheer possibility that a
defendant has acted unlawfully.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009); see also Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 557 (2007).

4

Defendants’ Memorandum in Support of its Motion to
Dismiss Relators’ Amended Complaint (“Defs.’ MTD AC”) and
Reply in Support of Defendants’ Motion to Dismiss Relators’
Amended Complaint (“Defs.’ Reply”), are incorporated by
reference herein. Dkt. 89 and 92.

118a
In order to meet Rule 9(b)’s rigorous standard in an
FCA case, Relators must provide “particular details
of a scheme to submit false claims paired with
reliable indicia that lead to a strong inference that
[such] claims were actually submitted.” Foglia v.
Renal Ventures Mgmt., LLC, 754 F.3d 153, 156 (3d
Cir. 2014) (citation and quotation marks omitted).
“Describing a mere opportunity for fraud will not
suffice.” Id. at 158. Instead, the facts alleged by the
Relator must “enable the court to draw an inference
of fraud, and allegations in the form of conclusions or
impermissible speculation as to the existence of
fraud are insufficient.” U.S. ex rel. Thomas v.
Lockheed Martin Aeroparts, Inc., No. 3:13-cv-183,
2016 WL 47882, at *3 (W.D. Pa. Jan. 4, 2016)
(citation and quotation omitted).
ARGUMENT
As they did in their AC, Relators attempt to allege
violations of the FCA in three counts, each now
premised solely on an alleged “scheme to pay
excessive compensation to the neurosurgeons in
exchange for referrals” in violation of the Stark Law.
Ex. 1, Redline SAC at ¶¶ 228, 239.5 Relators’ SAC
contains nothing new to overcome the pleading
deficiencies identified in the Court’s MTD Order that
doomed Relators’ AC or to “account... for...
Defendants’ remaining arguments” in the first
Motion to Dismiss. MTD Order at 6. Instead,
Relators generally repeat the allegations from the
5

Defendants’ prior motion to dismiss included an overview of
the False Claims Act, Stark Law, and Work Relative Value
Units (wRVU), which is incorporated by reference herein. Defs.’
MTD AC at 6-9.

119a
failed AC. They continue to allege that Defendants’
scheme arose out of standard employment contracts,
Ex. 1, Redline SAC at ¶ 99, and to try,
unsuccessfully, to repurpose their conclusory
allegations of “fraudulent” billing schemes for
physician professional services as support for their
Stark Law theory, id. at ¶¶ 131-185. The majority of
what is new in Relators’ SAC consists of wholly
conclusory assertions and legal argument designed to
distinguish already-settled allegations from their
own. See, e.g., id. at ¶¶ 231-37. This is insufficient
under Iqbal, Twombly, and Rule 9(b). Even in the
most favorable light, the SAC fails to move Relators’
speculative allegations from merely conceivable to
plausible claims plead with requisite particularity.
See U.S. v. Medtronic, Inc., No. CV 15-6264, 2017
WL 2653568, at *3 (E.D. Pa. June 19, 2017)
(“Ultimately, a complaint must contain facts
sufficient to nudge any claim ‘across the line from
conceivable to plausible.’” (quoting Twombly, 550
U.S. at 570); Escobar, 136 S. Ct. at 2004 n.6 (2016).
Boiled down to its essence, Relators’ Stark Law
theory remains that certain neurosurgeons employed
by UPMC-affiliated practice groups were paid, in
their opinion, too much when compared to other
neurosurgeons and that they received this excess
compensation by operation of standard, wRVU-based
employment contracts. As demonstrated below, that
predicate theory of Stark Law liability fails for a
number of reasons under applicable statutory and
regulatory provisions. More significantly, however,
that theory fails to plead a fraudulent scheme under
the FCA in that it requires the Court to indulge two
speculative assumptions that, at best, render a

120a
fraudulent scheme only conceivable where Relators’
burden is to allege facts that make that scheme
plausible in the circumstances alleged. See MTD
Order at 4. Relators assume, first, that generallyaccepted, wRVU-based compensation models offer
physicians an opportunity to inflate their wRVUs
(and thus their compensation) through improper
conduct, and, second, that UPMC hospitals caused
those affiliated practice groups to adopt those
generally-accepted compensation models for the
purpose of enabling the physicians to engage in
improper conduct and reward themselves for
referrals. No fact in the SAC comes anywhere close
to suggesting that such a scheme is plausible. More
is required to commence costly litigation in federal
court.
I. COUNT ONE FAILS TO ADEQUATELY
PLEAD
AN
FCA
VIOLATION
FOR
KNOWINGLY SUBMITTING, OR CAUSING
TO BE SUBMITTED, FALSE CLAIMS FOR
PAYMENT TO THE UNITED STATES.
To state a claim for violation of 31 U.S.C.
§ 3729(a)(1)(A), Count One of the SAC must contain
allegations making it plausible that Relators could
show: “(1) the defendant presented or caused to be
presented to an agent of the United States a claim
for payment; (2) the claim was false or fraudulent;
and (3) the defendant knew the claim was false or
fraudulent.” Hutchins v. Wilentz, Goldman &
Spitzer, 253 F.3d 176, 182 (3d Cir. 2001) (citations
omitted). Relators must provide “particular details of
a scheme to submit false claims paired with reliable
indicia that lead to a strong inference that [such]

121a
claims were actually submitted.” Foglia, 754 F.3d
at156 (citation omitted and quotation marks).
“Describing a mere opportunity for fraud will not
suffice.” Id. at 158.
Where, as here, Relators’ FCA presentment claim
is premised on a Stark Law violation, Relators must
plausibly allege a Stark-implicating financial
relationship, a referral, the submission of a claim as
a result, and scienter—i.e., reliable indicia that
Defendants actually submitted claims or caused
claims to be submitted while knowingly or recklessly
disregarding that the claims were false. U.S. ex rel.
Bartlett v. Ashcroft, 39 F. Supp. 3d 656, 665-666
(W.D. Pa. 2014); U.S. ex rel. Wilkins v. United Health
Grp., Inc., No. CIV. 08-3425, 2011 WL 6719139, *2
(D.N.J. Dec. 20, 2011).
A. Relators Fail To Allege The Elements Of
Any
Stark-Implicating
“Indirect
Compensation Arrangement.”
Relators fail to plausibly allege the core
requirement of any Stark Law claim—a financial
relationship that would trigger Stark Law
prohibitions on referrals and billing. After explaining
that a “financial relationship” triggering Stark Law
prohibitions can be direct or indirect, Ex. 1, Redline
SAC at ¶ 33, Relators baldly assert the existence of
an “indirect compensation arrangement” between
each physician and unspecified “UPMC hospitals,”
id. at ¶ 231. As laid out in detail in briefing on
Defendants’ first motion to dismiss, to support the
legal conclusion that such an “indirect compensation
arrangement” exists, Relators must allege a series of
facts: (1) an unbroken chain of financial relationships

122a
between the referring physician and an entity
providing statutorily-defined “Designated Health
Services” (i.e., a DHS Entity); (2) aggregate
compensation received from the organization in that
chain with which the physician has a direct
compensation arrangement (i.e., their direct
employers) that “varies with, or takes into account,
the volume or value of referrals or other business
generated” for the DHS Entity; and (3) the DHS
Entity has actual knowledge of, or acts in reckless
disregard or deliberate ignorance of, those facts. 42
C.F.R. § 411.354I(2)(i)-(iii) (emphasis added); see also
Defs.’ MTD AC at 8-10, 20. Indeed, because Relators
allege that remuneration flows from a third party,
not a DHS Entity, the Stark Law prohibition on
referrals could only apply if that remuneration is
shown to establish an “indirection compensation
arrangement.” 42 C.F.R. § 411.354. However, since
Relators have not and cannot allege that wRVUbased physician compensation “varies with, or takes
into account, the volume or value of referrals or other
business generated,” the SAC fails to allege a
financial relationship that would trigger the referral
and claim prohibitions of the Stark Law.
Compensating physicians based on their own hard
work—their own professional wRVUs—is facially
unproblematic under the Stark Law and does not, as
a matter of law, “vary with, or take into account, the
volume or value of referrals or other business
generated” for the hospital. See Defs.’ MTD AC at 89. That is because, under the Stark Law, the term
“referral” does not include a physician’s personally
performed services. See 42 C.F.R. § 411.351 (defining
“referral”). As such, the Government has consistently

123a
concluded that physicians “can be paid in a manner
that correlates to their own personal labor, including
labor in the provision of DHS.” See 66 Fed. Reg. 876
(Jan. 4, 2001) (emphasis added). Thus, the mere fact
that a wRVU-based productivity bonus produces
more compensation for a surgeon who performs more
surgeries of higher complexity is not a fact that
establishes that the bonus varies with, or takes into
account, the volume or value of referrals or other
business generated for the hospital. More is required
to establish, and thus more facts are required to
allege, the existence of a prohibited indirect
compensation arrangement.
The Court recognized as much in its June 21 Order,
citing Bingham v. BayCare Health System. See MTD
Order at 4 n.1. In that case, the court granted
summary judgment in favor of the defendants on the
relator’s Stark Law Claims finding that no indirect
compensation arrangement existed because, in part,
“the compensation for physicians employed by SC
Physicians is comprised of a base salary and the
physician’s productivity (using work-relative-value
units (‘wRVUs’)), neither of which are based on
referrals.” Bingham v. BayCare Health System, No.
8:14-CV-23JSS, 2016 WL 8739056 at *5 (M.D. Fla.
Dec. 16, 2016).
Relators’ failure to plausibly plead as an initial
matter the existence of an indirect compensation
agreement renders irrelevant their quibbling over
their burden to plead the inapplicability of a
statutory exception. Compare MTD Order at 4
(“[T]he lack of plausible and sufficiently-specific
allegations of liability make [Relators’ burden of
proof] objections ring hollow.”); with Ex. 1, Redline

124a
SAC at ¶ 35 (“[I]t is the defendant’s burden to show
that an arrangement complies with an exception
under the Stark Statute.”). The question of whether
a compensation arrangement fits into any exception
only comes into play if the plaintiff first establishes
that there is a Stark Law violation. See U.S. ex rel.
Singh v. Bradford Reg’l Med. Ctr., 752 F.Supp.2d
602, 626-627 (W.D. Pa. 2010) (“The logical structure
of the Stark Act and applicable regulations ...
suggest that the proper order is to first determine
whether an indirect compensation arrangement
exists, meaning whether it satisfies the definition,
before turning to ... whether an exception applies.”).
Here, the SAC is devoid of plausible factual
allegations on the elements of a qualifying financial
relationship under the Stark Law, i.e., that wRVUbased compensation varies with or takes into account
volume and value of referrals. Since their FCA
claims are solely premised on this deficiently pled
Stark Law theory, the SAC should be dismissed on
this ground alone.
B. Relators Have Not Plausibly Pled That The
Purpose Of The UPP, Tri-State, And CMI
Employment Compensation Was To Enable
Physicians To Engage In Nefarious
Conduct.
Despite the fact that standard contracts providing
for wRVU-based physician compensation are facially
unproblematic under the Stark Law, Relators’ SAC
again asks the Court to infer something nefarious
about 13 such contracts without providing any
factual support for this conclusion. Cf. Cooper v.
Pottstown Hosp. Co. LLC, 651 F. App’x 114, 117 (3d

125a
Cir. 2016) (declining to “infer nefarious intent based
solely upon a party’s conduct that is completely
consistent with a contract that, on its face, bears no
evidence of illegality”). As the Court pointed out, in
their AC, the Relators “allege[d] that the physicians
operated under standard physician contracts.” MTD
Order at n.1. The same is true in the SAC. Ex. 1,
Redline SAC at ¶¶ 100; 105-106. The SAC adds
nothing to distinguish the 13 named physicians’
contracts from those of any other employment
contracts, including Relator Bookwalter’s own
contract, and thus suffers the same fatal flaw as
Relators’ AC. MTD Order at 5 (noting that
“Plaintiffs’ averments fail to offer a meaningful
distinction between purportedly-unlawful claims,
submitted pursuant to the ‘standard’ compensation
agreements of physicians targeted in the Amended
Complaint, and the presumably-lawful claims
submitted pursuant to the Relator-physician(s)’ own
compensation agreements.”) (emphasis in original).
As the Court previously agreed, the standard
employment contracts reflect a compensation model
that tracks a widely-accepted, government-designed
wRVU system. MTD Order at 2, 5 & n.1. As detailed
in Defendants’ prior briefing, Congress requires
Medicare to use wRVUs to assess the effort,
intensity, and associated cost of physician services,
see 42 U.S.C. § 1395w-4(c), and to set the “Physician
Fee Schedule,” which determines reimbursement
rates for physician services, Medicare Program,
Revisions to Payment Policies Under the Physician
Fee Schedule and Other Revisions to Part B for
CY2012, 76 Fed. Reg. 73026 (Nov. 28, 2011) (setting
rates for CY2012); see also Medicare Program,

126a
Revisions to Payment Policies Under the Physician
Fee Schedule and Other Revisions to Part B for
CY2017, 81 Fed. Reg. 80170 (Nov. 15, 2016) (setting
rates for CY2017); Defs.’ MTD AC at 6-8; 15-16.
Medical groups and employers, in turn, have adopted
wRVUs to measure and value physician performance
for purposes of compensation. See Defs.’ MTD AC at
7-8. Yet, Relators allege that 13 employment
contracts are illegal because they incorporate this
very same, government-sanctioned performance
measure.
Like Relators tried to do with their AC, the SAC
relies on three sets of “facts” to support Relators’
claim that the neurosurgeon’s wRVU-based incentive
compensation is illegal under the Stark Law: (1) a
gap between Medicare reimbursement ($35 per
wRVU) and the physician’s annual base wRVU rate
($45), set by contract, Ex. 1, Redline SAC at ¶¶ 100102; (2) high wRVUs generate high compensation for
some physicians, id. at ¶¶ 111-130; and (3)
physicians allegedly engaged in “schemes” to
artificially inflate their wRVUs, id. at ¶¶ 131-212.
But, Relators have not added anything new to the
SAC to push their allegation that these standard
employment contracts were actually part of a
“scheme to pay excessive compensation to the
neurosurgeons in exchange for referrals,” id. at
¶ 228, from the realm of conceivable to plausible, let
alone meet Rule 9(b)’s particularity standard.

127a
1. The $45 per wRVU rate for calculating
incentive compensation under the
standard employment contracts does
not support an inference of any
prohibited compensation arrangement.
In the SAC, Relators reiterate verbatim the “fact”
that there is a $10 gap between the Medicare
reimbursement rate of $35 per wRVU and “the
‘bonus pay’ rate of $45 per wRVU” set in the
standard employment agreement. Id. at ¶¶ 100-101.
From this sole fact and without adding anything
new, Relators leap to the illogical conclusion that
“UPP, CMI[,] Tri-State, and UPMC have
contractually agreed with the neurosurgeons to take
an immediate financial loss on Medicare procedures
that are performed by these neurosurgeons” and thus
the compensation for the 13 named neurosurgeons
“does not constitute fair market value and cannot be
commercially reasonable in the absence of the
financial benefit of the referrals made to the UPMC
Hospitals.” Id. at ¶ 102 (emphasis in original).
The Court previously found these same allegations
insufficient to plausibly state a Stark Law violation.
As detailed in Defendants’ prior briefing, the $10 gap
alleged by the Relator shows only that one payor
(Medicare) at some point set a reimbursement rate
lower than the per-wRVU rate for incentive
compensation under the standard employment
contracts.6 See Defs.’ MTD AC at 16. But, as Relator
6

The SAC continues to allege that pursuant to the standard
physician contracts, each neurosurgeon is required to generate
a minimum number of wRVUs per year in order to earn base
compensation. Ex. 1, SAC Redline at ¶ 100. Thus, by Relators’

128a
Bookwalter well knows (and the Court observed),
that “gap” is anything but nefarious and can be
explained by reference to various factors, many of
which are apparent from the face of the complaint.
These factors include, for example, (a) the surgical
specialty
of
a
named
neurosurgeon,
(b)
reimbursement rates paid by other insurers who
reimburse UPP, Tri-State, and CMI for the
physician’s services, and (c) the fact that the gap
appears in standard neurosurgery employment
contracts, i.e., including Relators’ contract. Thus, as
the Court previously concluded, the $10 gap does not
move Relators’ theory into the realm of plausibility
because Relators fail to distinguish the supposedly
illegal compensation for the named neurosurgeons
from the same, supposedly legal compensation
arrangement for other physicians, like that of
Relator Bookwalter. See MTD Order at 5.
Moreover, Relators’ new references to “benchmark”
survey data purportedly drawn from reports of the
Medical Group Management Association (“MGMA”),
the American Medical Group Association (“AMGA”)
and Sullivan Cotter & Associates (“SCA”) actually
undermine, rather than support, the plausibility of
Relators’ claim that the $10 gap shows the standard
compensation arrangement somehow violates the
Stark Law. See, e.g., Curay–Cramer v. Ursuline
Acad. of Wilmington, Delaware, Inc., 450 F.3d 130,
133 (3d Cir. 2006) (“Although we must accept as true
all well-pled allegations. . . we need not credit the
non-movant’s conclusions of law or unreasonable
own allegations the per-wRVU rate for a physician’s total
compensation could be something quite different than the $45.

129a
factual inferences.”)
(citation omitted).
The
application of simple mathematics to the excerpted
data Relators provide strongly suggests Relators
misstate or misunderstand the relationship between
Medicare reimbursement rates and per wRVU rates
that underlie compensation in physician employment
markets. For the 2009 values for each of the surveys
cited, dividing the median compensation Relators
report (see Ex. 1, Redline SAC at ¶¶ 220–222) by the
median wRVU totals Relators report (see id. at
¶¶ 119–121) indicates that factors and sources of
revenue other than the Medicare $35 per wRVU
reimbursement rate drive per wRVU compensation
rates:
Apparent
“Gap”
from
Medicare
$35 per
Wrvu

Survey

2009
Median
Compens
ation

MGMA

$600,000

8,982

$66.8

+$31.8

AMCA

$548,186

8,910

$61.5

+$26.5

SCA

$529,500

10,240

$51.7

+$16.7

2009
Effective
Median Rate perwRVUs
Wrvu

Relators will no doubt argue that little can be made
of such a calculation for any number of reasons. But
each of those reasons proves the fallacy of Relators’
own inference that this same data drives the
plausible conclusion that Defendants agreed “to take
an immediate financial loss on Medicare procedures
that are performed by these neurosurgeons” and that
doing so would be commercially unreasonable in the
absence of “the financial benefit of the referrals

130a
[they] made to the UPMC Hospitals.” Id. at ¶ 102
(emphasis in original). Compared to the median
reflected in Relators’ tables, a gap of $10 per wRVU
from Medicare seems like a commercially reasonable
bargain. Simply put, like Relators’ reliance on
abstract “benchmarks” to support inferences of
nefarious conduct, Relators continued reliance on the
concept of a $10 gap from Medicare does not give rise
to a reasonable inference necessary to establish the
plausibility of their allegation that the standard
employment agreements at issue violate the Stark
Law.
2. The
“Productivity
Report”
and
“benchmark” survey data do not
support an inference of any prohibited
compensation arrangement.
Relators
allege
that
“numerous
UPMC
neurosurgeons were routinely generating wRVUs
exceeding by an enormous margin the 90th percentile
as reflected in widely-accepted market surveys.” Id.
at ¶ 126. They claim erroneously that this shows
Defendants’
wRVU-based
incentive
system
“encouraged and incentivized” the 13 named
neurosurgeons to artificially inflate wRVUs to
compensate them for referrals to UPMC Hospitals.
Id. at ¶ 115. Even viewing those allegations in a
favorable light, the leap is too far to support the
conclusion Relators assert. For example, several of
the named physicians’ wRVUs were close to or below
the number of wRVUs performed by neurosurgeons
at the 90th percentile reported by the three surveys.
Compare, e.g., id. at ¶ 112 (2009 wRVU figures for
Drs. Aguilar (15,147), Atteberry (13,914), Mintz

131a
(12,677) and Maroon (14,160)) to ¶¶ 119-121 (2009
90th percentile in MGMA (15,077), AGMA (14,286)
and SCA (15,840)). Further, high productivity rates
alone do not suggest that wRVUs are “artificially
inflated.” As with law firm billable hour reports,
every group has top performers; that some attorneys
are in the top tier does not support an inference that
they got there illegally. Indeed, the numbers
reported by Relators show that some of named
neurosurgeons performed above the 90th percentile in
fiscal years 2004, 2005 and 2006, before the alleged
scheme even started. Compare, e.g., id. at ¶ 112
(2004-2006 wRVU figures for Drs. Abla, El-Kadi,
Horowitz, and Maroon), with id. at ¶¶ 119-121 (20042006 90th percentile wRVU levels in MGMA, AGMA,
and SCA surveys); id. at ¶¶ 91, 98-99 (alleging Dr.
Kassam became chair in mid-2006 (fiscal year 2007)
and “shortly thereafter, under his leadership, the
Department [of Neurosurgery] embarked upon a
campaign to increase the volume of surgical
procedures”). This data fails to support the inference
Relators allege that something changed in 2006, or,
more fundamentally, that the allegedly unlawful
incentive compensation “scheme” was the cause.
3. Schemes to artificially inflate RVUs do
not support an inference of any
prohibited compensation arrangement.
Rather than follow the Court’s instructions to “omit
allegations in support of claims that have settled, as
well as those made in support of ‘medical necessity,’
as disclaimed by their counsel,” MTD Order at 6,
Relators’ double down, reiterating those allegations
virtually wholesale. See id. at ¶¶ 130-212; see also

132a
Dkt. 91, Relators’ Opp’n to Defs.’ MTD AC (“Relators’
Opp’n”) at 20 & nn. 8-9. But, just moving those
allegations under the heading of a Stark Law
violation and citing a settlement agreement do not
solve the fatal flaw at the center of Relators’ Stark
Law-based FCA claims: the SAC fails to connect the
dots between the alleged schemes and any Stark Law
violation.
Relators claim that the compensation system
“incentivized” and “encouraged the individual
physicians to devise various ‘creative’ schemes to
boost their wRVUs.” Ex. 1, Redline SAC at ¶ 131
(emphasis added). What is missing (among other
things) are any facts to show that such fraud actually
occurred in furtherance of a nefarious compensation
scheme. Notably, the allegations related to billing for
one surgeon’s services (see id. at ¶¶ 180-184) were
part of a voluntary disclosure the UPMC Parties
made to the government before even learning of
Relators’ action. See SAC Ex. 1 (Dkt. 98-1), at 2 (the
Settlement Agreement). 7 That means that when
Defendants identified an issue, they sought to fix the
problem, not to hide it or use it to advance an alleged
scheme to violate the Stark Law. Similarly, the
“new” allegation that Relator Bookwalter allegedly
discussed a “first assistant problem” with the chief of
surgery at UPMC Shadyside—without any details of
7

On July 15, 2016, the United States, Relators, UPMC, UPP
and others entered into a settlement agreement and stipulated
to dismissal with prejudice of certain of Relators’ claims
concerning reimbursement of physician services by federal
health care programs. Relators attach a copy of that settlement
agreement as an exhibit to their SAC (“the Settlement
Agreement”).

133a
that conversation, whether the chief had any role in
compensation decisions or that the conversation
concerned wRVUs or compensation—does not
support a plausible inference that physicians
fraudulently billed themselves as first assistants in
furtherance of a wRVU incentive compensation
scheme. See Ex. 1, SAC Redline at ¶ 146. Even if the
various schemes to inflate wRVUs were pled with
sufficient particularity, at most those allegations
suggest that some physicians may have received
some wRVU credit for some services billed
inaccurately. Importantly, however, no fact alleged
in the SAC even suggests that any UPMC entity
paying physician compensation engineered or was
complicit in that alleged inaccurate billing knowing
(or with reckless disregard) that it would produce
compensation to the physician in a manner that
“varies with, or takes into account, the volume or
value of referrals or other business generated” for a
UPMC Hospital. In the absence of that factual
predicate, it remains implausible that Relators could
show that an unlawful indirect compensation
arrangement existed between any surgeon and that
UPMC Hospital, i.e., that any Defendant violated the
Stark Law, let alone the FCA. Relators’ allegations
related to UPMCs’ control over its subsidiaries,
Relators’ claim that UPMC must have had
knowledge of and participated in creating and
implementing the standard contract agreements, and
Relator Dr. Sclabassi’s characterization of a vague
conversation he allegedly had with Dr. Kassam, see
id. at ¶¶ 12-22, 90, 105-06, 110, 229, are unavailing
for the same reason. None of those allegations, if
true, would establish the existence of an indirect

134a
compensation arrangement between any named
physicians and any UPMC-affiliated hospital.
Relators’ reliance on the Settlement Agreement is
also unavailing. The SAC asserts multiple times that
the Settlement Agreement concerning claims for
physician services “did not settle allegations relating
to false claims for hospital services submitted in
violation of the Stark Statute[.]” Id. at ¶¶ 148, 177,
187. While the Settlement Agreement may have left
open the door for Relators to bring Stark Law claims,
it does not vouch for them. The Settlement
Agreement plainly states that it is “neither an
admission of liability by the UPMC Parties nor a
concession by the United States that its claims are
not well founded.” SAC Ex. 1 (Dkt. 98-1) at 4. In
other words, the Settlement Agreement did not
purport to establish any facts, and Relators cannot
rely on it to generate plausibility where none exists.
Relators attempted this same argument in their
Opposition to Relators’ first Motion to Dismiss.
Relators’ Opp’n at 20, n. 9 (arguing that the
Settlement Agreement “confirm[s] the ‘plausibility’”
of “allegations that [Defendants] submitted claims
for physician services purportedly performed directly
by the neurosurgeons, when they did not in fact
provide the services as claimed”). The additional
citations to the Settlement Agreement in Relators’
SAC offer no reason why the Court should reverse
course and now accept an argument it rejected the
first time around.

135a
C. Alleged “Schemes” To Artificially Inflate
wRVUs Do Not Satisfy Rule 9(b).
Even if the SAC alleged a plausible connection
between, on the one hand, the four schemes for
physicians to artificially inflate their wRVUs and, on
the other hand, a Stark Law violation—which as
explained in Section B, supra, it does not—none of
the schemes are pled with the particularity required
by Rule 9(b). As the Court recognized when it
dismissed Relators’ medically unnecessary procedure
allegations the last go-round, for a scheme to support
a Stark Law violation, Relators must identify a
universe of procedures where the alleged fraud
happened, and generalized allegations that the
fraudulent conduct could have happened are not a
license to bypass Rule 9(b) and use discovery to fish
for examples that might meet the description. See
MTD Order at 3 (holding that in order for Relators’
medical unnecessary procedure allegations to state a
claim that “additional (or more complex) surgeries
were caused to be undertaken” by Defendants’
compensation system, Relators “must show that a
given procedure would fail the ‘medical necessity’
standard” and rejecting Relators’ argument that they
can
“expressly
disavow
‘medical
necessity’
averments” and still “‘pursue such evidence in
discovery’” (emphasis in original) (quoting in part
Relators’ Opp’n at 26 n. 11)); see also, e.g., U.S. ex rel.
Judd v. Quest Diagnostics, Inc., 638 F. App’x at 162,
163, 168-169 (3d Cir. 2015) (dismissing Stark-based
FCA Claims and citing cases where complaints were
deficient under Rule 9(b) because they lacked
reliable indicia of referrals and claims resulting from
alleged scheme).

136a
With regard to the medically unnecessary
procedure
allegations,
despite
the
Court’s
unambiguous warning not to do so, Relators yet
again try to “‘have it both ways,’” continuing to
pursue “claims whose medical necessity may be
questioned, while at the same time” failing to add
any allegations of fact that would meet “the rigorous
standards under Rule 9(b).” MTD Order at 3-4. Yet
again, for the two types of surgical procedures
referenced in the SAC, the SAC acknowledges that
both procedures can be performed for the same
condition, Ex. 1, Redline SAC ¶¶ 198-199, but the
SAC is devoid of a shred of information about a
single patient procedure that allegedly was not
necessary when performed: not the name of the
surgeon, not the date of the surgery, not the hospital
at which it was performed. It also does not allege
why any unidentified surgery involving the less
complex procedure should have been performed
instead of the more complex procedure—much less
that the unidentified surgeon knew the more
complex procedure was unnecessary. See id. at
¶¶ 188-212.
By
including
their
medically
unnecessary procedure allegations, Relators have
chosen to defiantly disregard this Court’s explicit
instructions to exclude them from their SAC while
yet again advancing allegations that remain woefully
deficient. The Court should, for those reasons,
dismiss them with prejudice. MTD Order at 2, 3-4;
see also Defs.’ MTD AC at 28-33; Defs.’ Reply at 1-2.
The SAC attempts the same end-run with regard to
the three other alleged schemes for inflating
wRVUs—trying to avoid Rule 9(b) by making
sweeping, generalized allegations that certain billing

137a
rules were not complied with, while eschewing
averments of any particular procedure performed at
any particular UPMC hospital where a particular
employed neurosurgeon did something wrong in
order to inflate his or her wRVUs. For example, the
SAC reiterates broad generalizations regarding
billing for services not rendered, but only mentions
two physicians (Ex. 1, Redline SAC at ¶¶ 179-185),
and the single allegation about an alleged “computerbased billing ‘shortcut,’” (id. at ¶ 185), is wholly
conclusory and fails to state plausibly and with
particularity that any false claims were submitted as
a result of this alleged scheme. Defs.’ MTD AC at n. 4
& 14. The SAC also alleges only the broad outlines of
how the alleged teaching physician scheme would
work, lists only 8 of the 13 named physicians as even
working at a teaching hospital, and then baldly
claims that five physicians violated the teaching
rules, without providing the specific facts required to
plausibly allege that any of these physicians were
not involved at the level required. Ex. 1, Redline SAC
at ¶¶ 167-174. Likewise, while the SAC claims five of
the named neurosurgeons “routinely violated” the
Medicare rules for billing as a first assistant, it
remains devoid of any allegations of any particular
surgery at any particular UPMC hospital where any
of these five physicians failed to perform the work
necessary to qualify as a first assistant, and instead
alleges only “on information and belief” that the
“fraudulent[ ] billing” was “a common and pervasive
occurrence.” Id. at ¶¶ 136, 142, 144. This too is
patently insufficient under Rule 9(b). See, e.g., U.S.
ex rel. Thomas, 2016 WL 47882, at *9 (dismissing
FCA claims where “[r]ather than containing details
of the alleged scheme, the complaint filed by [the

138a
plaintiff] presents only the broad outlines, and the
inferences it offers are not reasonably drawn”)
(citation and marks quotation omitted).8
The SAC’s failure to specifically allege each
physician’s and hospital’s involvement in each
scheme likewise dooms Relators’ attempt to use
these generalized schemes to smear fraud across all
hospital claims in connection with all surgeries
performed by all thirteen of the named
neurosurgeons. See, e.g., id. at ¶¶ 233-234, 239-240.
In United States ex rel. Grubbs v. Kanneganti, 565
F.3d 180 (5th Cir. 2009), the Fifth Circuit affirmed
the dismissal of conspiracy claims under the FCA as
to the hospital and doctors who were not specifically
named in the relators’ allegations related to an
alleged agreement. Id. at 194. The court explained
that “[e]ven taking the allegations as true—that
various doctors over a period of years each submitted

8

See also U.S. ex rel. Zwirn v. ADT Sec. Servs., Inc., No. CIV.
10-2639 KSH, 2014 WL 2932846, at *8 (D.N.J. June 30, 2014)
(noting that “courts have held that allegations based on
information and belief do not satisfy Rule 9(b) unless the
complaint sets forth the facts upon which the belief is founded”)
(citation and quotation marks omitted); Hericks v. Lincare Inc.,
No. CIV. A. 07-387, 2014 WL 1225660, at *5 (E.D. Pa. 2014)
(“At a minimum, the plaintiff must support her allegation of
fraud with essential factual background—the ‘who, what, when,
where, and how of the events at issue.’”) (quoting In re
Rockefeller Ctr. Props., Inc. Sec. Litig., 311 F.3d 198, 217 (3d
Cir. 2002)); U.S. ex rel. Feldstein v. Organon, Inc., No. CIVA 07CV-2690 (DMC), 2009 WL 961267, at *11 (D.N.J. Apr. 7, 2009),
aff’d on other grounds, 364 F. App’x 738 (3d Cir. 2010)
(dismissing fraud allegations as “highly speculative” because
relator did “not detail any concrete evidence that supports his
allegations”).

139a
certain false claims—[did] not, by itself, do more
than point to a possibility of an agreement among
them.” Id. Similarly, the most Relators have alleged
here is that some physician at some point may have
gamed the Wrvu system, an allegation which
constitutes a “mere opportunity for fraud” and is
deficient under Rule 9(b). Defs.’ MTD AC at 24-25;
Foglia, 754 F.3d at 158 (citation omitted); Judd, 638
F. App’x at 168-69; Hericks, 2014 WL 1225660, at *9
(dismissing FCA claims “rooted in conjecture,
speculation or supposition” where the plaintiff “asks
the Court to assume that some claims at some point
from some center must have resulted from illegal
practices.”). As with their medically unnecessary
procedure allegations, Relators should not be able to
bypass Rule 9(b)’s rigorous standard “to engage in a
fishing-expedition to seek out claims” with the hope
that they somehow may support their hypothesis.
MTD Order at 4.
D. Relators Fail To Plausibly Allege Scienter
Under The False Claims Act.
To show that claims submitted in violation of the
Stark Law also violated the FCA, Relators must also
plausibly plead scienter—i.e., reliable indicia that
Defendants actually submitted claims or caused
claims to be submitted when they knew or acted
with reckless disregard that that the claims
were false. U.S. ex rel. Bartlett, 39 F. Supp. 3d at
665-666. Paraphrasing the FCA and the Stark Law,
Relators generally allege that Defendants “were
aware of the compensation arrangements with the
Physicians, and had actual knowledge of, or acted in
reckless disregard or deliberate ignorance of, the fact

140a
that the Physicians received aggregate compensation
that varied with, or took into account, the volume or
value of referrals or other business generated by the
Physicians for the hospitals.” Ex. 1, Redline SAC at
¶ 232. But recounting the language of a statute is not
enough, Iqbal, 556 U.S. at 678, and, as discussed
above, wRVU-based compensation is generally
understood not to take into account the volume or
value of referrals or other business generated. See
supra at 6-7. Relators have not pled facts rendering
it plausible that this generally-accepted methodology
for measuring, valuing, and rewarding physician
productivity is in any way unlawful or that
Defendants could somehow have divined this “fact.”
Defs.’ MTD AC at 23-24; see also generally Section
I.B-C, supra; cf. Pottstown Hosp., 651 F. App’x at 117
(declining to “infer nefarious intent based solely upon
a party’s conduct that is completely consistent with a
contract that, on its face, bears no evidence of
illegality”).
II. BECAUSE RELATORS FAIL TO ALLEGE
PLAUSIBLE VIOLATIONS OF THE STARK
LAW, COUNTS TWO AND THREE SHOULD
ALSO BE DISMISSED.
Counts Two and Three of the SAC state additional
variations of FCA violations predicated on the same
insufficiently pled Stark Law violations discussed
above. In Count Two, the SAC includes one
additional conclusory paragraph related to cost
reports in an attempt to bolster the claim that
“UPMC, acting through its subsidiary hospitals,
submitted annual cost reports for the UPMC
Hospitals, and actively participated in the

141a
preparation and approval of such cost reports. Such
cost reports contained the certifications referenced
above, and did not disclose that the arrangements at
issue in this complaint violated the Stark Statute.”
Ex. 1, Redline SAC at ¶ 68. However, without first
plausibly pleading an underlying violation of the
Stark Law, any certifications based on these cost
reports were not “false” and no FCA violation exists.
And, moreover, even if they had alleged a predicate
violation, Relators have made no attempt to allege
which hospital submitted which cost report
containing a false certification or by whom it was
certified. Thus, Count Two fails under Rules 9(b) and
12(b)(6). See Defs.’ MTD AC at 26-27.
The SAC includes no substantive revisions to
Count Three of the AC. See Ex. 1, Redline SAC at ¶¶
253-257. To plead their reverse false claim theory
asserted in Count Three, Relators must allege facts
showing that the defendant had a “clear” or
established obligation to pay the government and
“the defendant did not pay back to the government
money or property that it was obligated to return.”
U.S. ex rel. Quinn v. Omnicare Inc., 382 F.3d 432,
444 (3d Cir. 2004); 31 U.S.C. §3729(b)(3); see also
Defs.’ MTD AC at 27-28. Count Three fails for two
reasons. First, as with Counts One and Two, the SAC
pleads no predicate Stark Law violation plausibly
with requisite particularity. Second, “[c]ourts within
this circuit have consistently held that the reverse
false claims provision is not a vehicle to simply
recast an identical claim under a traditional false
claim provision[].” U.S. ex rel. LaPorte v. Premier
Educ. Grp., L.P., No. 11-3523 (RBK/AMD), 2016 WL
2747195, at *18 (D.N.J. May 11, 2016). Relators

142a
having done nothing more, Count Three should be
dismissed.
CONCLUSION
For all the reasons set forth above, this Court
should grant UPMC’s Motion to Dismiss Relators’
SAC and enter an order dismissing the SAC in its
entirety with prejudice.
Respectfully submitted,
HOGAN LOVELLS US LLP
By: /s/ Stephen A. Loney, Jr.
Stephen A. Loney, Jr. (Pa. No.
202535)
stephen.loney@hoganlovells.com
1735 Market Street
Philadelphia, PA 19103
267-675-4600
267-675-4601 (Fax)
Jonathan L. Diesenhaus, pro hac
vice
jonathan.diesenhaus@hoganlovells.
com
202-637-5416
Mitchell J. Lazris, pro hac vice
mitch.lazris@hoganlovells.com
202-637-5863
555 13th Street, NW
Washington, DC 20004

